<html>
<title> - FOREST HEALTH CRITERIA</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                         FOREST HEALTH CRITERIA

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

 CRITERIA TO DETERMINE IF A FOREST IS HEALTHY OR UNHEALTHY, AND HOW TO 
                   IMPROVE OR MAINTAIN FOREST HEALTH

                               __________

                     MARCH 18, 1997--WASHINGTON, DC

                               __________

                            Serial No. 105-6

                               __________

           Printed for the use of the Committee on Resources


                               <snowflake>


                       U.S. GOVERNMENT PRINTING OFFICE
 40-351 cc                    WASHINGTON : 1997
----------------------------------------------------------------------------
                  For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               NICK LAMPSON, Texas
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JAMES V. HANSEN, Utah                MAURICE D. HINCHEY, New York
JOHN T. DOOLITTLE, California        BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
JOHN PETERSON, Pennsylvania          ---------- ----------
RICK HILL, Montana                   ---------- ----------
BOB SCHAFFER, Colorado               ---------- ----------
                      Bill Simmons, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                    Liz Birnbaum, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held March 18, 1997......................................     1

Statements of Members:
    Chenoweth, Hon. Helen, a U.S. Representative from Idaho......     1
    Peterson, Hon. John, a U.S. Representative from Pennsylvania.    47
    Radanovich, Hon. George, a U.S. Representative from 
      California.................................................    48

Statements of witnesses:
    Dombeck, Michael, Chief, Forest Service, U.S. Department of 
      Agriculture................................................     3
        Prepared statement.......................................    52
    Holmer, Steve, Campaign Director, Western Ancient Forest 
      Campaign, Washington, DC...................................    35
        Prepared statement.......................................    55
    Kane, Kenneth, Keith Horn, Inc., consulting foresters, Kane, 
      PA.........................................................    33
        Prepared statement.......................................    58
    Lynch, Dr. Dennis L., Professor of Forest Sciences, Colorado 
      State University, Fort Collins, CO.........................    18
        Prepared statement.......................................   108
    Moore, Martin, Director, Community Development and Planning, 
      Apache County, AZ..........................................    20
        Prepared statement.......................................    96
    Muckenfuss, Ed, Regional Manager, Westvaco Company, 
      Summerville, SC............................................    38
        Prepared statement.......................................    63
    Schoenholtz, Dr. Stephen H., Associate Professor of Forest 
      Resources, Mississippi State University....................    24
        Prepared statement.......................................    50
    Wall, Bill, Wildlife Biologist, Potlatch Corporation, 
      Lewiston, ID...............................................    40
    Wiant, Harry, President, Society of American Foresters, 
      Morgantown, WV.............................................    23
        Prepared statement.......................................    48

Additional material supplied:
    Little, Jane Braxton: Article on ``How to manage healthy 
      forests''..................................................   121
    Society of American Foresters: A Framework for Considering 
      Forest Health and Productivity Issues......................    69

Communications received:
    Pfister, Professor Robert D. (Univ. of Montana): Letter of 
      March 14, 1997, to Hon. Helen Chenoweth....................   116



MANAGEMENT OF OUR NATION'S FORESTS AND CRITERIA FOR DETERMINING HEALTHY 
                                FORESTS

                              ----------                              



                        TUESDAY, MARCH 18, 1997

                  House of Representatives,
         Subcommittee on Forests and Forest Health,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
room 1324, Longworth House Office Building, Washington, D.C., 
Hon. Helen Chenoweth (Chair of the Subcommittee) presiding.
    Mrs. Chenoweth. The Subcommittee on Forests and Forest 
Health will come to order. The Subcommittee is meeting today to 
hear testimony on what criteria should be used to determine if 
a forest is healthy or unhealthy, and what management tools 
would be considered the most appropriate to maintain or improve 
forest health.
    Under Rule 4(g) of the committee rules, any oral opening 
Statee ments at hearings are limited to the Chairman and the 
ranking minority member. This will allow us to hear from our 
witnesses sooner and help members to keep their schedules. 
Therefore, if other members have statements, they can be 
included in the hearing record under unanimous consent.

 STATEMENT OF HON. HELEN CHENOWETH, A U.S. REPRESENTATIVE FROM 
IDAHO; AND CHAIRMAN, SUBCOMMITTEE ON FORESTS AND FORESTS HEALTH

    Mrs. Chenoweth. I am pleased to be conducting this hearing. 
The Subcommittee has invited a broad range of witnesses to 
testify on the criteria to determine if a forest is healthy or 
unhealthy, and how to improve or maintain forest health.
    It is my desire to use this forum as an education tool for 
the Subcommittee to listen to a broad range of interests as 
well as to substantiate and to form a hearing record.
    We are fortunate to have with us today the caliber of 
witnesses representing the Forest Service, academia, local 
government, industry, and the environmental community. The 
subject of forest health has become a matter of great concern 
to us all. Forest health has been defined in many different 
ways to express important values obtained from forests.
    Many attitudes and policies during the past century have 
contributed to the forests' present condition. The forests that 
seem to be at most serious risk today are those developed under 
a historic cycle of high-frequency, low-intensity wildfire. 
Nearly 100 years of fire exclusion following thousands of years 
of management of the same forests by the use of fire by Native 
Americans has led to many crowded and unhealthy forests. Rather 
than the high-frequency, low-intensity wildfires of those days, 
today's wildfires are larger, hotter, more lethal to 
vegetation, more damaging to topsoils, and exceptionally 
dangerous to human settlements and property.
    Although the majority of forest health problems and the 
resulting large, damaging fires are found on the public lands 
of the west, introduced non-native forest pests such as the 
gypsy moth and Dutch elm disease in the east have also created 
serious threats to forest health across the United States, 
including all of these criteria.
    It is my desire to obtain information from this hearing 
that will be helpful to the Subcommittee as we move forward 
with improving the health of our nation's forests. I would also 
like to point out that it was my desire to have as broad a 
range as possible of interests and expertise represented at 
today's hearing. Although as I pointed out, we have a highly 
qualified list of witnesses, I would like to note that I 
extended invitations to more members of the environmental 
community to testify, but because of reasons known to them 
only, only one representative could attend today, and we 
certainly welcome him.
    I look forward to the testimony and will recognize the 
ranking minority member when he does get back from New York. 
Representative Hinchey is on his way in from New York, and will 
be joining us when he arrives.
    At this time, I would like to recognize Mr. Kildee for any 
opening statement he may have.
    Mr. Kildee. Thank you, Madame Chairman, for recognizing me. 
I really have no opening statement, just look forward to 
learning what we can learn about the genuine health of our 
forests, part of our national patrimony, and thank you for 
having the hearing.
    Mrs. Chenoweth. Thank you, Mr. Kildee. I would like to 
introduce the new Chief of the Forest Service, Michael Dombeck, 
and his assistant, Director Ann Bartuska. As explained in our 
first hearing, it is the intention of the Chairman to place all 
outside witnesses under oath.
    This is a formality of the committee that is meant to 
assure open and honest discussion and should not affect the 
testimony given by witnesses. I believe all of the witnesses 
were informed of this before appearing here today, and they 
have each been provided a copy of the committee rules.
    Mr. Dombeck, if you will stand and raise your right hand, I 
will administer the oath.
    Do you solemnly swear or affirm under the penalty of 
perjury that you will tell the truth, the whole truth, and 
nothing but the truth, so help you God?
    Mr. Dombeck. I will.
    Mrs. Chenoweth. Thank you. Let me remind the witnesses that 
under our committee rules they must limit their oral statements 
to five minutes, but that their entire statement will appear in 
the record. We will also allow the entire panel to testify 
before questioning the witnesses.
    The Chairman now recognizes Mr. Dombeck, and, without 
regard to what the rules say, we are anxious to hear from you.

  STATEMENT OF MICHAEL DOMBECK, CHIEF, FOREST SERVICE, UNITED 
STATES DEPARTMENT OF AGRICULTURE; ACCOMPANIED BY ANN BARTUSKA, 
               DIRECTOR, FOREST HEALTH PROTECTION

    Mr. Dombeck. Thank you for that introduction, and I have to 
say I am pleased to appear before the Subcommittee for the 
first time as Chief of the Forest Service. I want you to know 
that Dr. Ann Bartuska here with me is here as an expert. She is 
our director of the forest health protection staff and knows 
all of the details.
    I would like to begin my testimony by giving three brief 
examples just to demonstrate that we do have tools and we know 
many of the things we have to do. I would like to start out 
with an example from the south.
    The southern pine, the longleaf pine, was considered 
probably the most valuable in terms of wood quality products, 
aesthetically pleasing, fire-resistant species, resistant to 
insect diseases and attacks.
    In pre-settlement times, we had something in the 
neighborhood of 60,000,000 acres of longleaf pine stands. By 
the early 1900's, that was reduced to about 3,000,000 acres due 
to fire exclusion and conversion of forest lands to agriculture 
uses. Because of the management technologies today, the Forest 
Service is making progress in restoring the longleaf pine 
ecosystems and it is a priority in that part of the country. We 
are establishing new stands that provide a wide array of social 
and economic benefits as well as just the beauty of the forest.
    The second example I would like to give has to do with 
white pine blister rust. From 1909 and 1910, white pine blister 
rust came to this country and contaminated nursery stocks. It 
first affected Idaho and was discovered around Coeur D'Alene in 
about 1923. Then it spread throughout the west, Washington, 
Oregon, Idaho, and Montana, and as you know, the white pine was 
often known as the tree that built America from the standpoint 
of its value.
    In the 1950's, we began a successful effort, a breeding 
program to develop blister rust-resistant stocks because many 
of the original stands have been decimated as a result of this 
disease. Today, we are restoring white pine stands and white 
pine ecosystems in many ares of the west, so this is another 
example of genetics and the importance of disease and those 
kinds of studies that are going on.
    The third example I would like to mention is an issue that 
you are so familiar with in your home State. Last week, I spent 
some time in the west looking firsthand at some of the forest 
health issues, and you have already described in your opening 
statement some of the problems associated with overstocked 
stands.
    In the Boise National Forest in your State, they are moving 
ahead with a wide variety of tools to get on top of the issue, 
and I would like to say that it is important that we use all of 
the tools at our disposal to deal with the forest health issues 
from salvage logging to thinning to fuel reduction to 
prescribed burning.
    I looked at examples of mowing when I was out in Deschutes 
National Forest, and one striking thing that I saw there that 
also applies to the entire west is the Skeleton Fire, on the 
outskirts of Bend where 19 homes burned in the wildland/fire 
interface.
    We spent some $1,600 an acre suppressing that fire, whereas 
many of the management practices we could have used to avoid 
that type of situation as we move forward are much less costly 
than that.
    For example, we can do prescribed burning in some cases for 
$20 to $50 an acre, so I just list those as examples to say 
that we do have the tools and we need to use all the tools and 
we need to work with communities in a positive way.
    I guess the message I would like to leave the Subcommittee 
with is that we can accelerate the healing of our forests, and 
we can do so in a balanced and measured way. Because the 
consequences of inaction far outweigh the fiscal costs of the 
needs for restoration, catastrophic events, fires, floods, 
landslides seem to be occurring at increasing frequencies with 
ever more devastating consequences.
    Noxious weeds are diminishing the productivity of hundreds 
of thousands of acres of public land. The devastating fires are 
increasingly encroaching on the urban/forest interface. Last 
year alone, over 6,000,000 acres of public land burned.
    Healthy forests provide the resiliency to minimize the 
severe consequences of these events, and without decisive 
actions, these problems will only get worse. I want to say that 
restoration will not be quick, and in fact will be expensive, 
but we must look to these sorts of activities as investments in 
the land, investments that will immediately reduce the cost of 
catastrophic fire and, in the long run, greatly enhance forest 
productivity, health, and diversity.
    It took many decades to get where we are today, and it will 
take years to get to where we need to go. With that, I would be 
happy to answer any questions you have.
    [Statement of Michael Dombeck may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Chief Dombeck. I appreciate 
hearing from you. Dr. Bartuska, do you have any comments to 
make or are you here to assist in any questions that might need 
your expertise?
    Ms. Bartuska. I am primarily here to assist in any 
questions. I will make one comment as to the criteria with 
regard to understanding what the health of the forests are.
    We have programs in place to try to describe that so we 
know what the current condition is and where we are going in 
the future, and I think that is particularly critical in order 
to identify the areas of highest priority and highest risk, and 
part of our understanding on the national forests helps us do 
that, but also, we are trying to put that into national context 
using the Santiago Agreement which is a way internationally to 
define what the health of forests are and sustainability of 
communities.
    So part of our criteria for understanding where these 
forests are going is to identify current conditions and trends.
    Mrs. Chenoweth. Can you tell me what the Santiago Agreement 
may list as far as criteria for healthy forests?
    Ms. Bartuska. It involves a whole combination of biological 
criteria such as productivity of the forest lands, extent of 
forest lands, whether or not you have high fire risk.
    It also speaks to the stability and sustainability of 
communities, so there are economic factors. The ability to 
sustain small communities and large communities, the 
contributions to the GNP would be included, so it is a whole 
array of criteria dealing with health of ecosystems but also 
health of communities.
    Mrs. Chenoweth. Dr. Bartuska, when we think of actual 
forest health, which I think we have tried to confine our 
thinking in this committee to include community stability as it 
so very important to us, but in terms of restoring forest 
health to the forests, can you give me a little more detail 
with regard to the Santiago Agreement, if that is the criteria 
that you will be looking at?
    Ms. Bartuska. I don't have all the details of those 
criteria. We can send that to you.
    I will say that of seven main biological criteria, there is 
one specifically dealing with forest health, and the measures 
of that include extent and condition of the forest lands, 
mortality balanced against growth, conditions of soil 
productivity, so it would be fairly traditional within our own 
monitoring programs, traditional measures, but there are also 
some dealing with other criteria, other characteristics of the 
system, and I don't have all those details with me.
    Mrs. Chenoweth. In terms of having our own chief be able to 
make the decisions about the forests, what would the Santiago 
Agreement do with regard to his ability to make decisions on 
our forests in America? Chief Dombeck.
    Mr. Dombeck. I look at Ann as the expert on the Santiago 
Agreement, but I look at it as more of the umbrella concepts, 
sort of the macro approach that then we would build those or 
other concepts that we would apply to different geographic 
areas based upon differences in species composition, 
differences in precipitation, differences in elevation, and all 
those other types of things then become nested in those 
overall, overarching concepts that apply broad-scale.
    I see it as an umbrella that is as much a communication and 
education tool. We are, I believe, in the United States with 
the academic institutions, such as places like the University 
of Idaho--who I understand did the bulk of the research along 
with the Forest Service on the white pine blister rust issue 
that I used as an example, along with the Forest Service and 
industry and many others--we in this country are the experts on 
this issue, and many, many other countries look to us for 
technical expertise, for advice on these kinds of issues, and I 
have got to say one more thing about your home State where the 
national interagency fire is another example of, these are the 
experts from the standpoint of wildland fire fighting and 
incident command. We have this level of expertise in this 
country that is sought after by the international community, 
and it is something that we should be proud of.
    Mrs. Chenoweth. I think you can probably gather from the 
line of questioning that you are receiving that we want you to 
have authority and be unencumbered to make decisions about 
forest health in the future. I would be very interested in 
receiving more information with regard to the relationship 
there.
    We have a situation in northern Idaho right now that I 
might use as an example to see if it is something that could be 
moved ahead, and that is that on November 29, we had a very 
interesting phenomenon that occurred with regard to the 
weather. We had a very, very cold air inversion that settled in 
the northern part of Idaho and northeastern Washington, and 
then we had warm rain above, and the rain came through and 
rained ice for eight hours. We had ice buildup in the trees.
    By the time the ice buildup reached up to two and a half 
tons in the crowns of these trees, sometimes trees 175 to 200 
years old, so they were native species, the trees would break 
right below the last green limb, and it also occurred in the 
trees averaging 30 to 50 years old. They all broke about 30 
feet off the ground, and that presents an emergency situation 
with regard to forest health, because we don't just have the 
normal fuel load on the forest floor. We have 25 to 30 percent 
of the forest on the floor now from that ice damage spanning 
Mr. Nethercutt's district as well as mine and some moving into 
Montana.
    Are we in a situation where a decision can be made at your 
level or the level of Missoula, Montana, and Portland, Oregon, 
where we can get in and clean that up so we won't have a lot of 
fire damage and insect and disease moving in which would happen 
in this circumstance?
    Mr. Dombeck. Let me say that actually, I saw some of that, 
not the damage in the area that you speak of, but damage 
similar to that when I was in eastern Oregon, and it is not 
unlike the hurricanes that hit the southeast that will take a 
swath through the forest.
    My hope is that our policies are such that our experts are 
on the land, that we have the ability and the flexibility, the 
processes to make these kind of decisions by the resource 
managers on the land working with the local people in that 
situation.
    Now, I assume that that would be in Regional Forester 
Salwasser's area and I will check with him, but I assume that 
he and the forest supervisors and rangers are taking a look at 
that situation as we speak.
    Mrs. Chenoweth. Thank you very much, and welcome to your 
new job. I have appreciated working with you and your staff 
very much.
    Mr. Dombeck. Thank you.
    Mrs. Chenoweth. I would like to call on the gentleman from 
Colorado now. Mr. Schaffer.
    Mr. Schaffer. Thank you, Madame Chairman. I have a couple 
questions and I would like to start out just on the whole topic 
of controlled burns, a big issue out in my State of Colorado, 
as you may well imagine.
    We have great concern over air quality, and there are many 
communities in the range of the State that are in any given 
year just one or two days away from being considered 
nonattainment areas, and when Secretary Babbitt had mentioned, 
for example, the increased effort on forest burns and a 
considerable portion of our State includes federally managed 
lands, and that affects that range.
    I would just like to find out first, your thoughts about 
that particular management practice in the first place, but 
secondly, what I need to hear is just some assurances that the 
air quality standards in our State are being considered, that 
there is a plan to accommodate those standards and help us 
maintain our attainment of those standards, and that there is a 
commitment to work with our State hand in hand just as these 
projects may be carried out.
    Mr. Dombeck. Let me say that air quality has been a 
significant issue associated with prescribed fire, that has 
been broadly discussed, and the one reality is that in using a 
prescribed fire, we do have control over fires, oftentimes. 
They are planned with the particular wind direction in mind and 
to work within windows of opportunity based on whatever the 
local conditions are, whereas, if we deal with the disaster of 
the uncontrolled fire that we just have Mother Nature take its 
course, that leads us then into a situation where we have no 
control, no ability to manage the situation.
    What we have been doing is working with the Environmental 
Protection Agency. Our local folks are working with the State 
agencies to work with the windows of opportunity, to identify 
the windows of opportunity that they have so we make sure all 
of the situations, the air quality, the safety precautions, all 
of those kinds of things are taken into consideration. It is 
very important that we do that.
    Mr. Schaffer. Colorado is in the process right now of 
passing State legislation that would give the State authority 
that was granted to States under the Clean Air Act to require 
Federal facilities to reduce emissions coming from Federal 
lands.
    Are you familiar with that legislation or that effort among 
affected States and do you see any reason that there would be 
any kind of controversy or conflict at all?
    Mr. Dombeck. I am not familiar with Colorado's specific 
legislation and much of the clean air issues, of course, fall 
under the jurisdiction of the EPA, but what I will say is that 
the direction that we are going in, and I believe fairly 
aggressively, and the State of Colorado has been in the lead in 
this issue, is the Federal agencies are working with the States 
and the counties from the standpoint of planning, of having 
fire management plans of knowing how they are going to respond 
to situations in advance based upon dialog and plans and the 
interaction of the Federal agencies, the BLM, the Forest 
Service, as well as the appropriate State agencies, the 
counties, and from the standpoint of not only fire planning, 
but also from the standpoint of how they are going to respond 
in the most efficient and effective manner.
    Mr. Schaffer. I would also like to ask just with respect to 
planning and plotting out these burns and how they occur, some 
of those forests are so dry right now that it is very easy to 
see how--in fact, I have heard some people in the Forest 
Service refer to burns that exceed the plan. They are called 
bonus burns in the industry vernacular of sorts.
    I am curious as to how many of your staff are trained in 
fire suppression.
    Mr. Dombeck. Let me first say that no, there isn't a burn 
that is not dangerous and shouldn't be taken very, very 
seriously whether it is a natural fire or a prescribed burn, 
and as a result of 1988, and the tragedies of '94 that I was 
personally involved in, we have enhanced training and safety to 
an all-time high, I believe, I was with the Bureau of Land 
Management at that time, but also within the Forest Service 
from the standpoint of the programs that we had with the Forest 
Service as they kicked off a program called Fire-21, which 
takes a look at the issues across the board associated with 
fire, the funding, the training, the safety, because we should 
never, ever let anyone believe that fire is not--can be a very 
dangerous situation, especially in extreme weather conditions 
as we have learned the hard way many, many times, so the 
standpoint of training, the standpoint of safety is I think at 
an all-time high.
    But our workforces are changing, and the numbers of 
employees that are perhaps in line positions that 30 or 40 
years ago maybe a greater proportion of them would have been 
smoke jumpers, would have been trained specifically in fire, 
where now, I believe a lesser proportion of some of our people 
have that training.
    Therefore, the action that we have to take is to make sure 
that we provide it so that we don't have those gaps in skills 
and training.
    Mrs. Chenoweth. I thank the gentleman from Colorado, and we 
will have another round of questioning, if you have any other 
questions in mind.
    The chair now recognizes Mr. Kildee.
    Mr. Kildee. Thank you, Madame Chairman. What programs that 
would lead to forest health is the Administration seeking to 
give greater emphasis to in the 1997 budget?
    Mr. Dombeck. The following initiative would be--we are 
looking at timber stand improvement increases, I believe about 
an $11,000,000 increase in timber stand improvement. The acres 
treated would increase by about 30,000.
    We are looking at about $10,000,000 for insect disease 
prevention and suppression, and increased emphasis in fuel 
treatment, and increased emphasis in the watershed restoration. 
These are in addition to other activities that we are involve 
in, the training, the monitoring, the research and all these 
areas.
    I think the point that I want to make is that we realize 
that in many cases we have to make investments in watersheds 
and those investments include a wide variety of things. We have 
got roads sometimes that need to be put to bed, sometimes that 
need to be brought up to standard; noxious weed issues that we 
have to deal with; a whole variety of forest management 
practices that could include anything from salvage logging to 
thinning to a prescribed burning.
    When I was out in Deschutes National Forest last week, they 
showed me some mowing projects they were involved in, and one 
thing I would like to call your attention to is something that 
I have put in your folders just to give you a visual of some of 
the forest health situation. I think that it describes in 
pictures some of the things I am trying to describe.
    The first picture, and this is in Shasta County, 
California; the first picture shows about 1,500 stems per acre. 
It is a situation that is very dense, and in low humidity 
situations, very flashy from the standpoint of the historical 
situation would have been, these would have been probably 
Ponderosa pine, and because of fire suppression over the last 
100 years, you have had an encroachment of fir species, and a 
significant fire risk.
    The second picture shows work after some management has 
taken place there, and let me just describe the management that 
has occurred here, and that is about 2,000 to 3,000 board feet 
per acre of saw logs were removed, along with about 35 to 40 
tons per acre of nonmerchantable material, and what we have 
done here now is reduce this to about 100 trees per acre 
compared to 1,500 on the previous photo.
    Now, here, we have a photo that is eight years later, and 
what we are ready to do there is, we are ready to go in with a 
prescribed burn, giving the right weather conditions, to 
further reduce some of the fuel loading that is there because 
of the suppression that has occurred there for about 80 years.
    I guess my point is again, it is important that we use 
every tool at our disposal when we deal with this issue that we 
have. On the national forest system, we are estimating 
somewhere in the neighborhood of 39,000,000 acres is at high 
risk to catastrophic fire.
    Mr. Kildee. At one time when I was growing up, fire was 
always the enemy in the forest. Now, you can use fire as a 
friend, as helpful?
    Mr. Dombeck. With great respect. Fire is a natural part of 
the ecosystem and depending on where you are, the typical 
situation in the intermountain west is that it burned every 
seven to 15 years in a low-intensity situation.
    The large, catastrophic fires may have occurred in the 
cycles in centuries rather than decades like the low-intensity 
fires, and these are the way these ecosystems evolved. Through 
extensive and overzealous, if you will, fire suppression, the 
stands have changed in composition, leaving us with a 
significant issue to deal with, a serious issue compounded by 
the urban/wildland interface.
    If you go around Lake Tahoe or the front range or the west 
slope or the Sierras where you have got lots of houses, and in 
many cases, very expensive houses, interspersed in these dense 
forests. The education issue that is facing us is, in some 
cases, you see cedar shake shingles on these houses. You see 
people that are used to a visual that is very dense, much like 
photo number one, when the historical situation would have been 
more like photo number three.
    So there is this education problem that goes along with the 
visual landscape, and the fact that over the last several 
decades, we have preached to put every fire out, and yet, we 
have got to be very respectful of fire, because we can never 
assume that it cannot be very, very dangerous.
    Mr. Kildee. Thank you very much. Thank you, Madame 
Chairman.
    Mrs. Chenoweth. Thank you, Mr. Kildee. The chair now 
recognizes Mr. Vento.
    Mr. Vento. Thanks, Madame Chairwoman, and I welcome our new 
chief. I really am looking forward to working with you and I 
appreciate your testimony today. This is a tough topic, but one 
I think that merits education and I hope that we can come down 
with policy that reflects the science rather than what actually 
favors our own interest.
    I appreciate your effort to come here and the Chairwoman's 
effort to put forth the hearing on an educational basis.
    What was the time lapse between these two photographs, 
photo number two and three? Ten years?
    Mr. Dombeck. Eight years.
    Mr. Vento. Eight years.
    Mr. Dombeck. I believe.
    Mr. Vento. I was reminded--I was at a meeting on Saturday 
evening, and I was reminded by one of the foresters from the 
Superior National Forest in Minnesota. He said they had two 
fires up there this past year. One was a prescribed burn, and 
one was a natural fire that they tried to put out.
    Anyway, on the prescribed burn, they spent some $30,000 to 
$40,000, maybe even less than that. I don't remember. It might 
have been $18,000, but on the fire that they tried to put out, 
they spent $1,200,000.
    This is one of the problems that we have, Chief, in terms 
of when we get into firefighting, we are spending an awful lot 
of money. For the short-term, I suppose because of the urban 
interface and some other factors we have to deal with that.
    I don't know what they did to the air quality, but I guess 
they were obviously doing that in compliance with the laws that 
deal with air quality.
    Mr. Dombeck. From the standpoint of prescribed fire, 
oftentimes we can deal with somewhere in the neighborhood of 
$20 to $50 per acre in many situations; sometimes a little more 
than that, but when we get a catastrophic situation to deal 
with, it could go upwards to $4,000 an acres.
    The fire that I reviewed earlier, last week in the 
Deschutes National Forest that burned 19 homes in Bend at the 
urban/wildland interface there, we spent about $1,600 an acre. 
From the standpoint of management in advance, you can do a lot 
for $1,600 an acre.
    We need to start shifting our management practices so we 
can begin to make investments to prevent problems before they 
occur. It is sort of like watch our cholesterol before we have 
a heart attack.
    Mr. Vento. No one is suggesting that in life or limb. I 
think in Superior, that was not the case. I think it was just a 
regular fire that they were trying to put out. But I think that 
the urban interface, no one is suggesting that when those 
incidents arise that you don't try to deal with it in terms of 
life and personal property and as I said, health.
    Mr. Dombeck. Let me just add that part of the importance of 
planning that we talked about associated with Colorado I think 
applies here, because it is important that we know in advance 
what we are going to do.
    It is just like having the closest force as the most 
efficient way to deal with a fire, it is also important that we 
know what we need to do.
    I was at a situation, and this one happened to be in 
Arizona where we had a trailer park of about 1,000 residents in 
a very remote area that has a serious fire almost every year, 
and the average expenditure is about $3,000,000 to $5,000,000 
dealing with suppression of that fire.
    Now we have a management plan that actually creates a 
mosaic of vegetation types to dampen the effects of the fire as 
well as through a prescribed burn or natural fire depending on 
where the lightning strikes are to actually create a zone 
around the community so that we have protection from that.
    So planning in advance and knowing how to deal with these 
situations is the way to go versus having to react in the 
emergency role.
    Mr. Vento. It is a problem. I think that obviously it may 
not look as aesthetically pleasing if you happen to want to be 
in the middle of a dense forest, but that is part of the 
management that we have to advocate, I guess at the same time, 
and work with local communities to try to make certain they 
understand.
    Forest health is a very interesting issue. I have followed 
it in detail, but mostly there is an emphasis on salvage 
logging that tends to override everything else. There is a role 
for salvage, is there not?
    Mr. Dombeck. Yes, and I think it is important that we use 
all the tools and logging is certainly a tool, but what do you 
do when you are in an area where the timber values are not 
there to carry the cost of management?
    Mr. Vento. Very often, these types of salvage logging 
efforts--because of the way receipts are divided--are actually 
below-cost sales. They are money losers unless we get extremely 
high costs. If you are going to do this right, you should be 
using some of the new forestry type of plans in these areas, 
shouldn't you?
    Mr. Dombeck. Yes, and I hope--that is certainly the 
direction I would like to have again, as I emphasized using all 
the tools.
    It is important that we educate people to the fact that 
there is an appropriate place for salvage logging. There are 
timber companies that say to me, we would like to retool and 
use some of the lower value woods available, looking for new 
technologies.
    At our forest products laboratory in Madison, Wisconsin, we 
have probably 275 Ph.D.'s, some of the best minds in wood 
technology developing techniques to use lower value or poorer 
quality fiber for things in a wide variety of efficiencies.
    Mr. Vento. We are using all our aspen in Minnesota, let me 
tell you, for fiberboard and other products. I might also say, 
of course, the road restoration issue, mixed species types of 
reforestation, watershed management, road restoration, these 
are enormously important if you look at the damage that is 
occurring in terms of these forests.
    I think getting this on a cost basis is what the ultimate 
solution is. As I say, this is a good hearing. I am sorry I am 
going to be running back and forth, because we have another 
hearing on my Committee on Banking that Congressman Hansen is 
interested in.
    Thank you, Mr. Dombeck, Chief.
    Mr. Dombeck. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Vento. For a second round of 
questioning, I have just a couple of questions, Mr. Dombeck.
    I wonder, in your opinion, how would you describe modern-
day timber harvest practices with regard to the overall health 
of the forest?
    Mr. Dombeck. I think there are, like in all areas, a wide 
variety of practices developed in everything from helicopter 
logging to techniques that are less soft on the land than that 
sort of thing.
    In fact, I was reading about not too long ago, some mom-
and-pop operations, like those used when I was a kid in 
northern Wisconsin, where they were still skidding logs with 
horses.
    I am not the logging, the engineering expert, but I hope 
that in logging technologies, just like all of the things we 
have been talking about here where there is management that we 
continually strive for the best and most efficient technologies 
available to use. We are a society that the development of 
technology is something important.
    We encourage that and are solidly behind that, and there 
are lots of good, progressive timber operators out there.
    Mrs. Chenoweth. I assume from your answer that you really 
don't feel--I don't want to put words in your mouth. Do you 
feel that good, solid timber harvest practices could in any way 
be in conflict with ecosystem management plans?
    Mr. Dombeck. I think maybe they could in some situations, 
but I would venture to say that it is probably a social issue 
more than it is a technology issue. From the standpoint of the 
debate that I know that you are very familiar with whether we 
talk riparian zones, roadless areas, those kinds of things, and 
I think it is one of the most important things that the Forest 
Service can do. I would hope that the Subcommittee here and 
that all the interests would move to the areas first where 
there is the least controversy, and that as we begin to build 
credibility and build trust on these issues and confidence, 
because the things that we don't know when we end up in these 
protracted debates and end up in the court system, that money 
spent on litigation doesn't necessarily benefit the land or 
restore the ecosystem or restore the health of the forest.
    I see this in a sense as more of a social issue than it is 
a technology issue, but by that I don't mean to diminish the 
need to continue the search for new and better, more efficient 
and effective technologies.
    Mrs. Chenoweth. I am also very interested in knowing how 
you feel about grazing practices on the national forest, 
because you mentioned that over in the Deschutes Forest, they 
were mowing some of the meadows, which I think is something 
that can be dovetailed into the whole picture of fire 
suppression.
    I know Teddy Roosevelt envisioned using the livestock 
industry to help keep the fuel load on the forest floor down in 
terms of grazing practices.
    Mr. Dombeck. Well, the specific situation that I looked at 
on Deschutes was in the coniferous forest and not a situation 
where it didn't appear that there were opportunities for 
grazing in that forest.
    But from the standpoint of reducing fuel loading and that 
sort of thing, grazing is also a tool, and yet some of the 
forest health issues associated with--again, like the long-term 
fire suppression where we have encroachment of rangelands by 
pinion and juniper, for example, there is already a shortage of 
water and the competition for water by the plants is there, and 
sometimes--these gradual changes over time based upon the way 
we have managed the

ecosystems, we need to reverse through active management 
practices.
    Mrs. Chenoweth. I know it must have been just as 
fascinating for you as it was for me when I first went into the 
Deschutes National Forest to see how an emerging forest 
establishes itself with the pinion pine being a pioneer 
species, and then behind that, we see the graduated growth of 
the forest following.
    I see I still have just a minute left. I do want to ask 
you, how many of your staff are actually qualified in fire 
suppression activities, actually qualified as fire suppression 
trained technicians?
    Mr. Dombeck. I don't know the exact number. I don't know if 
Ann does, but we would be happy to provide that information to 
you. I am proud to say that I carried a red card at one time, 
and one of my goals this spring was to get qualified again, but 
with the pace of everything I have to do, I am not sure I am 
going to have the time to spend out jogging or in the gym to 
pass the tests.
    Again, as I said in the beginning, I am proud of the fact 
that we have among the best wildland firefighters in the world 
employed in the Forest Service, and I am real proud of the work 
that they do. They are very respected in the communities that 
they work, and it is an interesting group of people doing work 
that is very satisfying to them and at not very high pay.
    Mrs. Chenoweth. Thank you, Mr. Dombeck. The chair now 
recognizes Mr. Vento, if he wants a second round of questions.
    Mr. Vento. Thanks, Madam Chair. Just briefly. I note that 
an interagency task force or group was put together to examine 
the memorandum of understanding under which salvage logging 
took place, and there are a number key findings.
    Some of them, I think, in fairness are positive. The 
involvement of the Fish and Wildlife Service in the salvage 
logging plan added to rather than duplicated the efforts of the 
Forest Service and BLM regarding compliance with the ESA.
    That is a good one, but some of the others are not. They 
have a negative effect on pre-existing efforts to improve 
collaboration among agencies--a negative effect on pre-existing 
efforts because it overrode them, I take it, which is common 
sense. This was an emergency, and so the existing channels of 
communication that existed were suppressed.
    One of the concerns is that it destroyed the neutrality of 
dealing with forest health. I think I am saying this right in 
terms of this finding, Mr. Dombeck. I know that you 
participated in this or at least some of your associates did.
    It said current budget processes within BLM and Forest 
Services act as an incentive for field units to resort to 
salvage logging to generate money to pay for forest health 
projects, even when other projects may be more appropriate.
    I would assume that they are talking about forest health 
here, and that is to say that maybe road restoration would be 
more important than forest health, watershed restoration, 
diversified planting of mixed species, prescribed burns. 
Obviously, this law put in place specific quotas. I think it 
did mandate cuts, but others will argue that it didn't.
    Do you have any comment on these task force 
recommendations? I notice the final draft of an action plan was 
due in February. I don't know if it is out or not, but you 
might want to comment on that as well.
    Mr. Dombeck. Let me say, I think we did learn several 
things from the exercise. Number one, I think it got a lot of 
our policy people from the Washington staff and the various 
agencies out on the ground to look at things firsthand, and I 
think that was a positive.
    I think from the standpoint of endangered species 
consultations and things like that, the whole exercise 
demonstrated that we could--by starting the processes up front, 
and rather than having the consultation processes in series, it 
was valuable to us knowing what the rules are and what data was 
required as soon as we started collecting it.
    We coordinated better than ever. There were a variety of 
positives, but from the standpoint, I think, of some of your 
latter comments, we have got to understand that sometimes, we 
need to make investments and that we shouldn't always rely on 
the value of the fiber that is there to carry the cost, because 
you have roads, sedimentation problems that you might have to 
deal with; noxious weeds issues you might have to deal with; 
stream restoration; high densities of low value or virtually no 
value wood, those kinds of things, and we need to look at it 
from the watershed approach versus the values of the 
merchantable timber that is there as the driver so that in the 
long haul, that will generate benefits.
    Mr. Vento. One of the problems, of course, is at the same 
time when timber revenues are down, the various funds that 
respond to conservation are also flat. So you are appealing to 
Congress for additional appropriations, modest as they may be, 
for prescribed burning, for watershed restoration, for road 
restoration, a host of things, the noxious weed issues that 
make up this forest health, is that correct?
    Mr. Dombeck. Yes, and I think more and more we are 
learning, and if it is in agriculture or forest management or 
whatever, that there are all sorts of interactions, and the 
thing that we would like to be able to do is use the broadest 
variety of tools and technologies available in the best and 
most efficient combination for the long-term benefit of the 
land.
    Mr. Vento. One of the criticisms that often is raised, of 
course, is that there is a great controversy about the 
suppression of fire and whether or not that suppression is 
actually responsible for in fact the buildup of fuel loads in 
the forest.
    I know that someone is going to come through and say, well, 
this is what the forest looked like 120 years ago. It was 
barren and there was nothing there, and now this is what it 
looks like today. It is in much better condition, obviously 
under those circumstances.
    What is the scientific state of the majority of scientists 
with regards to forest health today versus what it was in the 
past?
    Mr. Dombeck. Well, from the standpoint of the proportion of 
forests that are healthy versus those that are not is a really 
tough question, because then--what proportion of the tress and 
the condition of the trees and so on.
    But I might say from the standpoint of monitoring and 
technologies, the sooner that we can identify the problems, the 
better. Rather than waiting until we have a catastrophic fire 
situation or rather than waiting until we have got this insect 
infestation, the more that we can detect this coming, our early 
warning system is sort of, you know, keep your cholesterol down 
and get plenty of exercise to avoid the heart attack, and that 
is the direction that we really need to be heading in.
    Of course, from the standpoint of science and technology, 
we are learning more and more about the interactions of things 
and we just need to apply those and I hope we can do it in a 
good, balanced context, and one of the things that I am looking 
for is being able to move with a broad support base as we fix 
our forests, because we do know that inaction is not the 
solution. In fact, the costs will increase.
    Mr. Vento. My time has expired and I have to leave. Thank 
you.
    Mrs. Chenoweth. Thank you, Mr. Vento. The chair recognizes 
the gentleman from Colorado, Mr. Schaffer.
    Mr. Schaffer. Thank you, Madame Chairman. Before I start, 
Dr. Bartuska, could you tell me where you came from before you 
ended up with the agency? Tell me about your background.
    Ms. Bartuska. I am originally from Pennsylvania and I got 
my degrees in Ohio and West Virginia, and spent nine years in 
North Carolina before I came up here working in research in the 
Forest Service and the university community and then most 
recently here with the forest health protection staff.
    Mr. Schaffer. Thank you. Going back to this prescribed 
burning, on the forests where you know you want to do 
prescribed burning now, how soon would you start?
    Mr. Dombeck. Well, let me say first that I am not the 
prescribed--the fire ecologist, but what we look for basically 
is the window of opportunity from the standpoint of fuel 
moisture levels.
    We always, and there are very strict guidelines that I 
would be happy to send you if you wish that our experts follow 
from the standpoint of weather conditions, relative humidity, 
fuel moisture, the time of the year, all of those kinds of 
things.
    I was again out west last week. They were telling me about 
a situation, where if they would burn that the direction of the 
smoke would go over the interstate, then they could not burn 
because of the air quality as well as the public reaction to 
that.
    So these are things that--every situation within a certain 
set of parameters is probably different.
    Mr. Schaffer. What percentage of these lands would you 
estimate have to have fuel removed ahead of time mechanically?
    Mr. Dombeck. Before they would be burned?
    Mr. Schaffer. Yes.
    Mr. Dombeck. I would ask Ann to--I would just have to 
almost take a wild guess. I am not sure.
    Ms. Bartuska. It is highly variable obviously depending 
upon the geographic area.
    For example, in the south, they almost never are 
mechanically removing things, and it is a very active program, 
but in certain parts of the west, mechanical treatment is going 
to have to be a very high priority first, and it could be ten 
to twenty percent before you go in and actually do any 
prescribed burning.
    A lot of it is dependent on how much fuels there are, as we 
mentioned earlier with the urban/wildland interface, there will 
be conditions where we will not, even though prescribed burning 
might be the most desired approach because of the communities 
there will have do mechanical treatments primarily.
    Mr. Schaffer. Let me ask a more general question. Some of 
the Forest Service personnel that I have met with in Colorado 
believe that they are insufficiently funded to accomplish 
forest health projects.
    Do you think they are right and how do you think we would 
deal with this?
    Mr. Dombeck. I think the answer is yes, and it is a matter 
of where we make--you know, as a society where we make--our 
investments and the priorities that you and the U.S. Congress 
in consultation with the Administration.
    Let me say that as I mentioned, in national forests, we 
assume now that about 39,000,000 acres are at significant 
threat of fire, and as I look at the management practices, and 
I have the numbers here someplace, and I believe we are making 
process to the tune of about----
    Mr. Schaffer. How many million acres a year?
    Mr. Dombeck. We would like to be at about 3,000,000 acres a 
year of treatment and management to get on top of the problem, 
and I guess--let me say I will respond in writing with the 
specifics, but I think we are somewhere in the neighborhood of 
700,000 acres treated per year is about where we are at now, 
and we would like to be at about 3,000,000.
    Mr. Schaffer. In your prepared comments, you mentioned the 
importance of gathering good data and giving us a good picture 
of our ecosystems and conditions and so on.
    I would like to find out what kind of information does the 
forest inventory and assessment program provide for our 
national forest lands?
    Ms. Bartuska. If you are speaking about the forest 
inventory analysis program, we have very good coverage in 
determining what the standing volume is as well as other 
structures of the forest.
    For most of the national forests in the east and throughout 
the west, that combined with forest monitoring gives us a 
really good handle on some of the trends going on with other 
components like soils, condition of the forest.
    Mr. Schaffer. Thank you, Madame Chairman.
    Mr. Dombeck. I just found the numbers here, sir. The 
President's budget allows for treatment of between 800,000 and 
1,200,000 acres of high priorities for fiscal year 1998, and 
from the standpoint of planning and so on, we would like to be 
able to get up to about 3,000,000 or so per year to begin to 
gain on the issue.
    Mrs. Chenoweth. Thank you, Mr. Schaffer. The chair now 
recognizes Mr. Peterson.
    Mr. Peterson. Good afternoon and welcome to Washington. I 
was interested in knowing your familiarity with the Allegheny 
National Forest located in northwestern Pennsylvania.
    Mr. Dombeck. Well, I have been there. I have never worked 
there, and I grew up in the Chequamegon National Forest in 
northern Wisconsin not far from Lake Superior, 25 miles from a 
town of 1,500, so I am somewhat familiar with the eastern 
forest landscape and species and so on.
     Mr. Peterson. You are the custodian of maybe the finest 
hardwood forest in North America?
    Mr. Dombeck. I have heard about it and this is--I am into 
my second month on the job, but I hope to get up there and see 
it. I want to get out on the ground as much as I can and not 
only talk to the employees but talk to the local people that 
are there and be able to solve as many of the problems that we 
have locally as well as celebrate the successes.
    Oftentimes, I think in the business of natural resource 
management, we don't spend nearly enough time celebrating the 
successes because the positive reinforcement and encouragement 
of employees and constituencies and so on is I think a very 
powerful educational tool that we can use and should be using a 
lot more.
    Mr. Peterson. I guess just to quickly familiarize you, it 
is a forest that I think contributes $12,000,000 to $15,000,000 
a year to the treasury while only cutting about half of the 
recommended cut by the last forest plan, and I guess I would 
just like to ask you if you support the multi-use concept that 
has been there which I think has pretty successfully balanced 
recreation, water quality, hunting, timbering, and oil and gas 
exploration.
    Mr. Dombeck. Yes. I believe that the multiple-use concepts 
are among the cornerstones that we have and the fact of the 
matter is, we know how to do these practices and we know how to 
do them right in many cases, and in virtually all cases, and 
from the standpoint of the wide variety of demands and uses of 
national forests.
    Recreation is in a tremendous growth phase today. Forest 
health is an issue that we have to deal with. The wildland fire 
issue is an issue we have to deal with. Some of the eastern 
pest and disease problems are issues that we have to deal with, 
but from the standpoint of overall balanced use, I believe that 
is where mainstream America is.
    Mr. Peterson. I just wanted to share with you that it is 
very much a part of our growing economy in that area. It is the 
finest hardwood forest in North America.
    It is a mature forest. We had a sense a few years ago that 
there was a move on the national level to really limit or stop 
cutting, which most people that you might hear later today 
think would be a mistake, because it is a mature forest that 
needs harvesting, much of it or a lot of it. It is not, as some 
would say, that we are cutting down the rain forest. That is 
just not the case, but it is a mature forest. It is a very 
important asset economically to the area, and I look forward to 
you coming up this summer, if that is possible.
    I would love to have the chance to spend some time with 
you, because it is not only a very valuable resource 
economically, it is a very beautiful forest, and it is just a 
nice place to visit and a pretty part of Pennsylvania, and we 
would look forward to your coming.
    Mr. Dombeck. Thank you, I accept.
    Mrs. Chenoweth. Mr. Dombeck, I thank you for being here in 
the committee with us. I saw a very interesting article in the 
Washington Times yesterday about timber harvest practices in 
Brazil.
    A representative from the World Bank was indicating that in 
Brazil, we need to realize that we don't need to set aside vast 
chunks of land exclusively for one use, that really, everyone 
is better off, including the communities, the logging industry, 
the environmentalists, everyone is better off when we can all 
work together using the same land, and actually, we achieve a 
higher standard.
    I share with you the fact, Chief, that we have quite a 
mountain to overcome socially, but together, I think that we 
can do that and welcome to your new job.
    Thank you very much.
    Mr. Dombeck. Thank you.
    Mrs. Chenoweth. The committee will recognize the second 
panel. On the second panel, we have Dr. Dennis Lynch, Professor 
of Forest Science, Colorado State University from Fort Collins, 
Colorado; Martin Moore, Director of Community Development and 
Planning from Apache County, Arizona; Harry Wiant, President, 
Society of American Foresters, Morgantown, West Virginia; and 
Dr. Stephen Schoenholtz, Associate Professor of Forest 
Resources, Mississippi State University, Mississippi.
    Before we get started, I want to ask you to stand and take 
the oath. Would you raise your right hand?
    Do you solemnly swear or affirm under the penalty of 
perjury that your statements and responses given will be the 
truth, the whole truth, and nothing but the truth? Thank you.
    Without objection, I will now recognize Mr. Schaffer from 
Colorado to introduce Dr. David Lynch. Mr. Schaffer, thank you 
very much for bringing Dr. Lynch to us.
    Mr. Schaffer. Thank you, Madame Chairman, and I appreciate 
the opportunity to introduce a constituent, and a noted one 
within his industry and profession as well. In spite of the 
material in front of us, his name is Dennis Lynch.
    Dr. Dennis Lynch has been a professor of forestry and 
scientist at the Colorado State University in Fort Collins for 
the past 23 years. Previously, he spent 15 years with the U.S. 
Forest Service as a forester, district ranger, planning leader, 
and three years working at Colorado State Forest Service and 
Land Use Planning Commission.
    Dr. Lynch holds a Bachelor of Science in forestry, a 
Master's degree in business, and a Ph.D. in natural resources 
administration, all from Colorado State University, I might 
add.
    He has received numerous awards and honors over the years 
for his work in the area of forestry. I appreciate him coming 
here today and look forward to his testimony. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Schaffer. Let me remind the 
witnesses that under our committee rules, they must limit their 
oral statements to five minutes, but that your entire statement 
will appear in the record.
    We will also allow the entire panel to testify before 
questioning of the witnesses, and now the Chairman recognizes 
Dr. Lynch for the first testimony. Dr. Lynch.

STATEMENT OF DR. DENNIS L. LYNCH, PROFESSOR OF FOREST SCIENCES, 
       COLORADO STATE UNIVERSITY, FORT COLLINS, COLORADO

    Mr. Lynch. Thank you, Madame Chairman and members of the 
Subcommittee. I appreciate your inviting me here to present my 
views on forest health and management as these relate to the 
Central Rockies.
    At the outset, I want to say that I am attempting to 
present what I believe are points of consensus gained from 
discussions with a number of professional forestry colleagues 
in Colorado and Wyoming, so I am indebted to my fellow faculty 
members, to the Wyoming State Forester and the Colorado State 
Forester and his management staff and fire division staff.
    I am indebted to the Colorado Timber Association Director, 
the Wilderness Society forest ecologist, and the Chairman of 
the Colorado-Wyoming State Society of American Foresters.
    In discussing issues of forest health and management 
related to the Central Rockies, it is important to review the 
historical interaction of people and forests, as I do in my 
written testimony.
    There are several key points that I would like to draw from 
that summary. The first is that the forests that we have today 
in the Central Rockies are a result of a long history of human 
disturbance and use.
    Second, these previously disturbed areas of the past have 
grown up under protection into today's mature forests.
    Third, each time period from pre-history to the present has 
been accompanied in its own unique way with a society sense of 
forest health. In other words, definitions of forest health 
have subjective societal values interwoven with our ecological 
estimates.
    Fourth, this long period of custodial care and protection 
in Colorado and Wyoming appears to have allowed shifts in 
understory plant species, the buildup of forest fuels, 
increased numbers of trees, and less overall forest diversity.
    It is important to recognize that there are distinctly 
separate forest types in the Central Rockies, and that these 
vary uniquely from one another and from forests in the other 
parts of the United States. Therefore, generalizations about 
forest health may be of only limited application when 
addressing specific forest situations. Each forest should 
properly have its own specific criteria related to health and 
management, and as I will explain later, our approach to the 
restoration of these forests must change.
    In my invitation to testify, I was asked to respond to the 
question what criteria would you use to determine if a forest 
is healthy or unhealthy. From my previous testimony, I think 
you can see why that question is very difficult to answer.
    However, from my discussions with colleagues, I have 
attempted to find some areas of complete or general consensus 
about overall criteria. The first criteria that we agree upon 
is an unhealthy forest condition is outside the range of normal 
forest conditions.
    Second, an unhealthy forest does not have a diversity of 
age classes and successional stages over large areas.
    Third, an unhealthy forest does not have a diversity of 
plant and animal species.
    Fourth, natural disturbances are more severe and frequent 
in unhealthy forests.
    Fifth, dead trees and woody debris accumulations are much 
greater than decomposition rates and removals in an unhealthy 
forest.
    Sixth, an unhealthy forest does not provide a balanced flow 
of benefits to sustain our society.
    I have also been asked to respond to the question, what 
management tools would you consider most appropriate to 
maintain or improve forest health.
    There is always the option of doing nothing, but I would 
like to point out that doing nothing carries a price tag. 
Currently, fire suppression cost per acre in the Central 
Rockies greatly exceeds the cost we have experienced in 
demonstration forest restoration projects.
    The first management tool that seems appropriate to us is 
the use of prescribed fire. The results can be quite good in 
achieving desired changes or they can be quite variable. 
Prescribed fire is not a precise tool.
    Another management tool we believe is quite appropriate in 
achieving forest health is the use of mechanical equipment to 
prepare areas for prescribed fire, to thin forests to desired 
stocking levels, and to remove forest products for our use. 
Some critics would quickly point out that this is just 
traditional logging or timber harvesting.
    The key point I wish to make is that forest restoration is 
not traditional logging or timber harvesting. Mechanical 
removal can be more precise than the use of fire alone. It can 
achieve results in different forest types that prescribed fire 
cannot.
    I also wish to note that current Forest Service procedures 
related to timber sale layout, administration, and pricing do 
not work very well in forest restoration situations.
    Lastly, there are combinations of prescribed fire and 
mechanical restoration techniques that are especially 
appealing. Mechanical removal can extract materials for use 
while preparing the fuel bed for follow-up prescribed fire. It 
gives the manager options when air quality concerns, for 
example, preclude using fire to fully accomplish a project.
    The Forest Service needs some new authorities for changing 
the way it does business in dealing with forest restoration 
projects. We suggest that the Subcommittee look careful at the 
potential for stewardship contracting on national forest lands.
    This concludes my testimony. I will attempt to answer any 
questions the Subcommittee members may have.
    [Statement of Dennis Lynch may be found at end of hearing.]
    Mrs. Chenoweth. Dr. Lynch, thank you very much for that 
valuable testimony. The chair now recognizes Martin Moore for 
his testimony.

STATEMENT OF MARTIN MOORE, DIRECTOR, COMMUNITY DEVELOPMENT AND 
                PLANNING, APACHE COUNTY, ARIZONA

    Mr. Moore. Thank you, Madame Chair, members of the 
committee. I come before you today in the capacity of director 
of environmental planning and research for Apache County, 
Arizona. I am also at the dissertation stage of a Ph.D. at 
Northern Arizona University, specializing in western forest 
resource policy and management. I also serve on the Arizona 
delegation to the Western Governors' Drought Task Force, and I 
have worked as a member of the interagency coordinating group 
on wildland fire with the western governors in tandem with the 
Wildland/Urban Interface Fire Policy Review Team.
    Currently, we are facing a serious forest health crisis 
throughout the western States, which threatens adverse 
ecological, safety, and economic impacts on an increasingly 
catastrophic scale. These concerns are centered around a 
definition of forest health that includes the vitality and 
balance of wildlife populations, health of the forest resource, 
balance of multiple uses, and levels of catastrophic fire.
    A number of scientists, including Dr. David Garrett and 
Drs. Wallace Covington and Margaret Moore have performed 
research showing alarming trends in forest resource health in 
Ponderosa Pine ecosystems.
    Drs. Covington and Moore, with comparisons from 1867 to 
1987, show a 994-percent decrease in herbage production, a 26-
percent reduction in streamflow, and an increase from 24 to 843 
trees per acre.
    Concerned about the implications of Dr. Covington's 
research, Apache, Greenlee, and Navajo Counties in Arizona 
commissioned an independent, scientific study by Dr. Garrett of 
the health of the Ponderosa Pine ecosystem in the Apache-
Sitgreaves National Forest, with comparisons to other 
southwestern forests.
    This study includes a compendium of major scientific 
research with the full cooperation and assistance of the 
Apache-Sitgreaves National Forest, utilizing the latest forest 
stand inventory data, and is watershed-based research.
    Dr. Garrett's conclusions, building on Covington and 
Moore's research, shows from 1911 to 1994, a 391 percent 
increase on the Apache-Sitgreaves Forest of trees per acre four 
inches or greater in diameter, with several stands exceeding 
more than 1,000 trees per acre.
    Average maximum stand density index forest-wide is 
approaching a high danger level with several areas exceeding 
the high danger threshold.
    Herbage biomass has plummeted to its low production levels, 
largely because of high tree densities. Water yields per acre 
will further decrease, resulting in continued stream flow 
reductions and water quality problems.
    Fuel loads will rise from the current 20 tons per acre to 
well over 30 tons, and fuel ladders will dominate the 
landscape, leading to increasing numbers and intensity of 
catastrophic wildfire.
    This continued downward spiral of forest ecosystems 
threatens the health and sustainability of recreation 
opportunities, wildlife and wildlife habitat, timber resources 
and water resources.
    Another forest health indicator is level of fire intensity. 
Apache County, alarmed about fuel load buildups identified by 
Dr. Garrett and the Forest Service, conducted a comprehensive 
study of wildfire hazards and potential impacts throughout 
Arizona and New Mexico. The results of the study show that more 
than 224,000 homes are at high to extreme risk, threatening the 
safety of over 600,000 citizens.
    Over 5,000,000 acres are at high to extreme risk of loss 
and potential costs of fire in relationship to timber 
resources, livestock, homes, and drains on the Federal treasury 
could exceed $35,000,000,000.
    Dr. Garrett's research shows that the number of 
catastrophic fires has doubled in 20 years and will continue to 
rise.
    Concerning the vitality and balance of wildlife 
populations, a third forest health indicator, Drs. Covington 
and Moore show that instead of wildlife geared toward open, 
park-like forest, types and numbers have shifted toward 
wildlife favoring closed canopy structures. This stresses 
wildlife adapted to open-space environments, threatening the 
survival of these species.
    In addition, ungulates such as elk have erupted in 
population, eating forest meadows down to the roots, creating 
erosion and forage reproduction problems, in turn, destroying 
the grazing resource base for other ungulates and competing 
wildlife.
    Another important indicator of forest health is the ability 
of the forest to provide for multiple uses. Current laws, 
regulations, court decisions, and most significantly, unhealthy 
forest resource conditions combine to form a serious threat to 
the continuation of human and natural multiple uses.
    Based on this testimony and a preponderance of research, it 
is our contention that every aspect of multiple use is placed 
in serious jeopardy over the next 50 years in southwestern 
forests unless the current forest condition is reversed.
    The overwhelming body of research shows a need to return 
forests to a healthy state for the sake of the total forest 
ecosystem, forest resources, public protection from wildfire, 
healthy wildlife populations, and every other aspect of forest 
health including multiple use and human survival.
    To accomplish this, Dr. Garrett provides a 50-year 
prescription which should dramatically improve forest 
conditions across the landscape. These improvements include 
increased water yield; doubling of herbage production; increase 
in average tree size from less than six to 16 inches in 
diameter; healthy maximum stand density index for healthier, 
more disease and insect-resistant trees; and a 50-percent 
reduction in fire fuel load with a return to healthy, low-
intensity fires.
    This time line includes thinning, prescribed burning, and 
overstory harvest of high hazard, unhealthy, and overly dense 
trees of all diameter classes with emphasis on trees 20 inches 
and smaller, as this would not include healthy old-growth 
trees. Returning every ten years to treat and control burn is 
vital to this effort.
    Dr. Garrett shows that this prescription, in which 
mechanical harvest is an imperative player, would result in a 
per-acre net value of $155, nearly ten times the $16 net value 
if we continue on our present course.
    Added to this is the multi-billion dollar savings of 
treatment over destruction by catastrophic fire, tree-stand 
die-offs and drought.
    Currently in place, and I will wrap this up very briefly. 
Currently in place on the Apache-Sitgreaves and Tonto National 
Forest is an ecosystem demonstration project agreement which we 
are part of. This agreement, if funded, would help facilitate 
implementation of forest health projects on these forests.
    Madame Chair and members of the committee, the threat to 
our natural and human environments is real, and the solution is 
straightforward and affordable. To ignore them is 
unconscionable from either a scientific, ecological, social, 
ethical, or economic point of view. It is our plea that all 
sides will come together to make the tough choices and act to 
preserve this nation's forests for ourselves and our posterity.
    Thank you for this time, and I look forward to any 
questions.
    [Statement of Martin Moore may be found at end of hearing.]
    Mrs. Chenoweth. Mr. Moore, I thank you for your very 
interesting testimony. I have been in touch in conversations 
with Mr. Mark Killian as well as the dean of Northern Arizona 
University there at Flagstaff.
    It is fascinating, the work that has been done there, and I 
thank you for bringing that to the committee. Thank you very 
much.
    At this time, the chair recognizes Harry Wiant from the 
Society of American Foresters. Mr. Wiant.

   STATEMENT OF HARRY WIANT, PRESIDENT, SOCIETY OF AMERICAN 
              FORESTERS, MORGANTOWN, WEST VIRGINIA

    Mr. Wiant. Thank you. I am President of the Society of 
American Foresters, which is the largest professional forestry 
organization in the world, over 18,000 members.
    It is a real honor to speak before this committee. I am 
serving on a related committee that is a scientific panel for 
Congressman Charles Taylor's forest health committee, and that 
has been a real pleasure also.
    I am going to speak with two hats on, first as president of 
the Society of American Foresters, and second, as a private 
citizen and forester. They will differ a little bit.
    The Society of American Foresters has studied the forest 
health issue for many years. You will find a written report in 
my testimony.
    We conclude that there are serious forest health and 
productivity problems in the U.S., but also, forest health is 
an informal and a very inexact term.
    An assessment of forest health has to consider not only the 
condition of the forest but what do you want out of the forest, 
the management objectives. Very importantly, forest health is a 
local issue. A single national prescription is inappropriate.
    Now, I am going to express my personal views which aren't 
too different, but perhaps stated a little different than some 
of these. Please note in the record that I am not speaking for 
the Society of American Foresters at this time.
    As humans, we experience, all of us, the joys of birth, the 
vigor of youth, the slowing down with age (and I have gone 
through several of those stages myself), and finally death. 
Very few of us would accept the idea that the hands-off 
approach is appropriate to maintain human health.
    Trees and forests are similar. I want to make two main 
points. A well-managed forest is the healthiest possible, 
number one, and number two, there is no opportunity to address 
declining health in an unmanaged forest.
    I want you just for a moment to picture a well-managed 
forest of 5,000 acres. The species are well adapted to the 
site, and we are going to grow trees until they are about 50 
years old, and then we are going to cut them in what is called 
a final harvest. We call it the rotation age.
    If we had a forest like that and managed it for 50 years, 
what would it look like at the end of 50 years? You would have 
100 acres ready to plant or to regenerate naturally. These 100 
acres might be scattered around in the forest, but you would 
have 100 acres like that. You would have 100 acres with one-
year-old seedlings, 100 acres with two-year-old seedlings, 
etc., and you would have 100 acres with mature trees ready to 
harvest.
    You would have logging and access roads that are well-
engineered; regeneration you want to be prompt; and soil 
productivity is maintained. You would have intermediate cuts--
we call them thinning to help other trees in the stand to grow 
to a greater size quicker.
    Biodiversity would be great because you would have a good 
distribution of age classes, and that has been mentioned 
before. Fires, insects, and diseases tend to be most damaging 
to trees of certain ages, so this will minimize the danger from 
fire, from insects and diseases.
    Thus, you have the good access roads, appropriate species, 
good age-class distribution, and good forest management. That 
is the criteria of a healthy forest.
    Likewise, the management tools necessary to have a healthy 
forest are obvious. One, you would have to have an adequate 
cadre of professionals. I am talking about foresters, 
engineers, wildlife managers, and others.
    Two, you would have to have the flexibility to manage the 
forest unhampered by poorly conceived environmental laws, by 
frivolous appeals, and by tax codes that discourage long-term 
management.
    Three, you need to have a strong forest research program in 
the Forest Service and universities and in the private sector.
    Four, forest management has to remain science-based with a 
complete tool kit, and that has been mentioned previously, but 
I want to mention some of the things we can't afford to lose. 
Prescribed fire, herbicides, selection cutting, clear cutting, 
seed-tree cutting, we need all those tools.
    To put it in a few words, the answer to the forest health 
problem is more and not less forest management, and the primary 
responsibility for managing our forests should be in the hands 
of those best qualified for the job, foresters. Thank you.
    [Statement of Harry Wiant may be found at end of hearing.]
    Mrs. Chenoweth. Mr. Wiant, thank you very much, and the 
chair recognizes Dr. Schoenholtz.

STATEMENT OF DR. STEPHEN H. SCHOENHOLTZ, ASSOCIATE PROFESSOR OF 
         FOREST RESOURCES, MISSISSIPPI STATE UNIVERSITY

    Mr. Schoenholtz. Madame Chairman, committee members, thank 
you for the opportunity to present my views on forest health 
this afternoon.
    Forest health means different things to different people 
depending on their forest management objectives and 
philosophies.
    There is general agreement that our well-being and the 
well-being of future generations depend on productive, healthy 
forests. However, some perceptions of forest health may vary 
depending on individual preferences for forest use.
    To maintain and manage our forests in an acceptable state 
for future generations requires us to define forest health 
broadly enough to encompass the many facets of forest 
ecosystems.
    What do we look for when we try to assess forest health? An 
assessment of forest health should consider key indicators that 
can be measured or described periodically to identify trends. 
We must remember that some key indicators of forest health may 
vary among different forest ecosystems.
    For example, in many forests of the West, water limits 
plant growth at least for part of the growing season, but 
excess water may be the limiting factor in southern forested 
wetlands.
    Key indicators may also vary among different management 
objectives. For example, I would argue that health indicators 
for intensively managed production forestry might differ from 
indicators used in managing for wilderness values.
    Often, the primary concern when assessing forest health is 
the vegetation itself. Forest ecosystem health must include a 
level of acceptable plant productivity and biological diversity 
which, in turn, depend on the ability of the soil to supply 
necessary nutrients and water.
    Forest vegetation indicators of productivity and diversity 
would include age, particularly of the overstory trees; 
structure, which is the vertical and horizontal arrangement of 
vegetation (a critical component of wildlife habitat); crown 
condition; foliar injury levels in the crown and the leaves; 
species composition which is very important for diversity and 
also for assessing forest product values; species diversity 
itself which translates into wildlife diversity by providing 
habitat diversity; growth rates; mortality rates; regeneration 
rates; species replacement patterns; presence of insects or 
disease; and presence of exotic species. This is just a partial 
list of some key indicators looking at the vegetation.
    There is also a large range of soil attributes such as 
chemical, physical, and biological properties that can be used 
as part of the assessment of forest health. Some of the basic 
soil indicators would include soil texture, which is the 
proportion of sand, silt, and clay (soil texture indirectly 
affects many other soil properties).
    We can look at maximum rooting depth where we have deeper 
soils producing more productive forests and more resilient 
forests.
    We can look at soil bulk density and water infiltration 
rate. These are related to water and air movement. We can look 
at plant available water capacity; total organic carbon and 
nitrogen, which are very importantly related to organic matter; 
also nitrogen is often a limiting factor in forest ecosystems.
    We can also look at pH, which indirectly controls many of 
the soil chemical reactions in the forest, and finally, we can 
look at soil strength, which indicates physical damage, 
particularly compaction-type damage from heavy machinery.
    We have a good understanding of expected changes in 
vegetation over time (and we mentioned the U.S. Forest 
Service's forest inventory process earlier today) in many of 
our forest ecosystem types.
    We also have a well developed data base of inherent soil 
properties from our Natural Resource Conservation Service. We 
have this for much of the country.
    If these vegetation and soil criteria indicate deviations 
from expected trends or levels, then management practices to 
maintain or enhance forest health should be considered. These 
management alternatives would include removal of undesirable 
species, thinning to appropriate tree density or appropriate 
number of trees per acre, supplemental plantings, use of 
controlled or prescribed burning, manipulating vegetation to 
create specific habitat, possibly imposing stricter air quality 
standards, and fertilization.
    Monitoring forest health will require manipulations of 
large volumes of spatial and time-dependent environmental data. 
This aspect of monitoring should be developed within a 
geographic-information-system environment that can accommodate 
incorporation of new variables and can be developed as an 
adaptive management tool.
    Avoiding degradation of forest health is achieved by 
accepting management techniques that do not adversely affect 
the forest or the quality of the environment in which the 
forest grows. The forest management decision process should be 
based on potential impacts to indicators of forest ecosystem 
health.
    It is essential that experience, feedback, and adaptability 
play prominent roles in any assessment of forest health and the 
management of forests. Thank you.
    Mrs. Chenoweth. Thank you, Dr. Schoenholtz. Now, we will 
proceed to questioning of the panelists. Each member will have 
five minutes for their questioning.
    I will open with a question to Martin Moore. You mentioned 
the effects on water resources caused by the high density of 
trees, and you also noted that more than 5,000,000 acres of 
forest lands are at high or extreme risk of loss to 
catastrophic fires.
    You mentioned 240,000 homes, perhaps 600,000 humans. That 
is startling. Could you explain further how fires on these 
lands will impact water sources and wildlife, and the second 
question is, what will the impact on the Mexican Spotted Owl be 
if nothing is done to mechanically remove some of the excessive 
fuels?
    Also, have they yet seen a Mexican Spotted Owl?
    Mr. Moore. Unfortunately, Apache County probably hosts most 
of the Mexican Spotted Owls in Arizona. There are approximately 
220-some-odd Mexican Spotted Owls in the Apache-Sitgreaves 
Forest in our area that we understand. Some are near interface 
communities, some are not.
    If you don't mind, I will answer the second question first. 
There was a fire called the HB fire over in New Mexico. It 
destroyed--they don't know, they are still inventorying, but it 
did destroy some Mexican Spotted Owl nesting sites.
    We had the huge 60,000-acre fire up in the Four Peaks 
Wilderness area that destroyed the entire Mexican Spotted Owl 
habitat on top of the Four Peaks Wilderness.
    We know of approximately four Mexican Spotted Owl habitat 
territories that were burned in the 1980's in what was called 
the Dude fire near Payson, Arizona.
    By the way, this is approximate--I believe it is 5,470,000 
acres at risk, or something like that was arrived at from the 
data gathered by the Forest Service from their fire management 
and fire risk report, and their methodologies largely centered 
around interface areas that would include campgrounds, near 
roadways, and near communities. It may not be reflective of 
some areas of the interior forest that are away from these 
areas.
    As far as some of these numbers on impacts on streams and 
that type of thing, the basic process works like this. You get 
a catastrophic wildfire. A catastrophic wildfire, and I 
describe it in the written testimony a little bit, is the type 
of wildfire that burns large acreages, sterilizes soil, 
destroys land-based and aquatic wildlife, and threatens human 
life and destroys the regenerative capacity of the ecosystem.
    Basically what we have got is a situation where you get a 
waxy layer down under the soil. You get a heavy rain that comes 
along behind that and it just happened that those conditions 
happened just right, or wrong in this case, with the Dude fire. 
The Dude fire came. They had heavy monsoon rains right after 
that. There was a lot of tearing up of the riparian bottoms. A 
lot of soil was washed downstream, and there are a couple of 
communities downstream, actually out of the forest where a lot 
of this soil washed in and flattened out the stream beds, and 
they have had incidents of flooding where homes and bridges 
were destroyed and that kind of thing.
    That is basically what you would be looking at. Then it 
would destroy the long-term ability of the soil to regenerate. 
When you sterilize the soil like that, an ability for trees and 
that type of thing to regrow, especially Ponderosa Pine, is 
very difficult.
    Mrs. Chenoweth. We have some areas that were burned in 
Idaho in 1910, and they still don't have any regenerative 
ability.
    Mr. Moore. Yes. As a matter of fact, if anyone is in 
Flagstaff and takes a look at the hot fire that burned on I 
think it was the north side of Mount Eldon, you can see that 
they have tried time and again to replant trees up there and 
they just cannot get them to take hold.
    Mrs. Chenoweth. Very interesting. Mr. Wiant, given the 
criteria you described, maintaining soil productivity, a whole 
list of very, very interesting, very good criteria, would you 
say that forest health conditions tend to vary by ownership 
types with regard to State forests, private forests?
    Mr. Wiant. Yes. I think they tend to vary by the amount of 
management that it is possible to do on them. Unfortunately, I 
think that some of our national forests are in terrible shape 
because we have been able to do very little management and able 
to do less every day, it seems.
    I think some of the lands that are in best shape are those 
held by corporations who have managed them intensively with 
good forest management, and then our private landowners still 
need a lot of education, so there are some in between those 
extremes, I suspect.
    Mrs. Chenoweth. You mentioned the importance of providing 
flexibility to use a variety of management tools. How do 
current Federal laws limit a landowner's flexibility to do what 
is necessary to maintain or improve forest health?
    Mr. Wiant. Certainly, our national forests are impacted by 
the amount of documentation that is necessary before they can 
do anything. It is extremely expensive to the taxpayers out 
there, and I happen to be one of them, and I kind of resent 
that.
    Certainly, some of the laws make it very difficult for 
people. There was a letter by Carl Winger, who was at one time 
a station director for the Forest Service, in the Journal of 
Forestry recently, and he was talking about one of the laws, 
and I think we all know it is very important.
    He describes what the country looked like at the turn of 
the century, and you have seen pictures at the time of the 
Civil War in the east at least. It looked like the battlefield, 
the French forests after the battles of the first World War.
    The lands were really desolate, hardly any timber left, and 
I won't read that part to you, but I want to read one part of 
this letter, the conclusion, and I think it is very important.
    He says that current land management practices are 
threatening or endangering 1,300 species of the survivors of 
that period, as claimed by the U.S. Fish and Wildlife Service, 
is simply not believable. How can we claim that the land 
management practices taking place, at least in the east today, 
can be threatening species that survived that catastrophic 
period at the turn of the century? It just doesn't make sense.
    Mrs. Chenoweth. Thank you, Mr. Wiant. It doesn't. How has 
the Society of American Foresters addressed the question of the 
legal entanglements that we find ourselves in?
    We talked about the socioeconomic problems that we must 
overcome. What about the legal entanglements that you see? Will 
any recommendations be forthcoming either from your 
organization as a whole or what do you recommend?
    Mr. Wiant. I think the Society of American Foresters is 
trying to stay apolitical, and that limits their ability to 
address some of these things, so my answer to that previous 
question was my answer not SAF's. I should label or maybe 
underline it somehow here verbally.
    But we have studied some of them, and I think that you 
would find that we have policy statements that indicate that 
none of these should limit our ability to practice good 
forestry, and that should always be kept in mind by policy-
makers.
    Mrs. Chenoweth. Mr. Wiant, how diverse is the membership of 
the Society of American Foresters?
    Mr. Wiant. It is very diverse. It ranges, I would say 
probably there are a few members that think you shouldn't cut 
any trees and a few members who think you can cut them all and 
not worry about the environmental consequences, but most 
members are somewhere toward the center of that distribution, 
so it is quite a varied organization.
    Mrs. Chenoweth. Thank you. For my final question, I would 
like to ask Dr. Schoenholtz.
    You noted that it is not possible nor is it necessary to 
consider all aspects of a forest ecosystem in order to assess 
its condition, yet the Forest Service decisions are frequently 
challenged because they are not based on the very latest and 
newest information.
    Is this a reasonable standard to hold the Forest Service 
to? What are your feelings and your thoughts on that one?
    Mr. Schoenholtz. My feelings are, if we try to assess or 
measure the health of all the components of an ecosystem, it 
would just be an impossible task if you consider air quality, 
water quality, soil quality, vegetation, wildlife habitat, 
soils, the various components and how they interact.
    My goal in presenting today was to try to pick indicators 
that integrate those various aspects, and in my opinion, the 
vegetation and the soil are two key general indicators that 
integrate a lot of the processes that go on in the system.
    I don't mean to state that any of them are less important 
than others. That is a value judgment, but we need to find 
indicators that integrate many of these processes, and in my 
opinion, vegetation, including growth rates, diversity, and 
structure of that vegetation, is an integrator of the soil, 
water, climate, atmospheric stress, et cetera.
    It also provides habitat for all the wildlife species that 
we are concerned with. So if you are going to spend limited 
funding, you have to pick key indicators that integrate many of 
the processes.
    Mrs. Chenoweth. Thank you, Dr. Schoenholtz. The chair now 
recognizes the gentleman from Colorado, Mr. Schaffer.
    Mr. Schaffer. Thank you again, Madame Chairman. I have a 
first question for Mr. Wiant. You mentioned a number of 
restrictions and impediments that the Federal Government 
represents from time to time in purposes of private forestry, I 
presume.
    I would like you--you mentioned tax policy as well, just in 
general, but I would like you to be a little more specific if 
you could.
    What are some areas that we might consider within the 
context of tax policy that either promote or impede private 
forestry?
    Mr. Wiant. All of a sudden, I am having a slip of memory 
here. The tax that has been discussed so often that they are 
hoping is changed, the tax law right now that deals with 
investments, capital gains.
    The capital gains change was made several years ago and has 
had a great impact on private forestry. They are always very 
interested in seeing that change to be more favorable to them. 
That would be the main one I would think of.
    This is a long-term investment. You are talking about 
perhaps 50 years or so before you can recognize any return. An 
example of this is, I know of a case in California recently 
where they had 500 acres of forest land that had been managed 
by a landowner, and after he died, there was a disagreement 
about the value of the estate. So the Internal Revenue Service 
required that it be evaluated and a forester attorney, a man 
who has both qualifications, was able to show that in 
California because of all the restrictions on forest management 
and the necessary plans that had to be turned into the State 
before you could do anything, he was able to show that 500 
acres of California forest land had a negative value. As I 
understand from his report to me, he was told by IRS that you 
can't show a negative value, but he did win when it got into 
court.
    That is showing kind of the extreme, but when you can show 
that 500 acres has a negative value because of regulation, 
there is something wrong with the system.
    Mr. Schaffer. Dr. Lynch, I have a couple questions for you 
with regard to my local concerns that I bring here.
    Specifically, what forest conditions in the Central Rockies 
concern you the most?
    Mr. Lynch. I think from this consensus and discussion that 
I mentioned in my talk, the things that really are of concern 
to a number of us would be first the fuel buildup that we see 
in the forests because of protection and custodial care.
    We are concerned about the overstocking that exists in 
these stands. Currently, I believe that we are at a point where 
we may have more trees than we have ever had on the landscape 
and certainly, comparative photo studies by Thomas Veblen at 
the University of Colorado; Ric Laven, our own forest 
ecologist, pictures of the Manitou Forest, for example, 
indicate that we have tremendous numbers of trees now that we 
did not historically have.
    We are concerned about the shift in the age classes. Many 
of our stands are reaching an over-mature, old category and the 
concern of everyone, the general consensus, was that we need to 
have a diversity of forest types across landscape areas that 
would consist of a number of successional stages and certainly, 
a number of age classes, and we just don't have those.
    Another concern would be the species shifts where we see 
trees that are shade tolerant and understories that 
historically were not there, at least in our studies, and we 
are concerned about the presence of exotics. We have a number 
of exotic species that are in these forests, insect life 
particularly, that are of concern.
    Mr. Schaffer. Could you comment on the prescribed burning 
proposal, how you think it may affect Colorado and other 
western States?
    Mr. Lynch. Yes. Prescribed burning is not a precise tool. I 
think that is the overall message to carry. It has some 
limitations.
    The manager of fires can control the amount of fuel and he 
can control the ignition time and type of ignition. He can't 
control fuel moisture. He cannot control wind.
    So there are limitations here to the use of this tool that 
are significant. If we are talking about forest restoration of 
the type that we believe needs to be done in the Central 
Rockies, we are talking about really burning thousands of acres 
of land, and we are talking about smoke management problems 
that are of significant concern, particularly air quality 
problems in our front range area where we have air quality 
concerns that are significant now.
    Mr. Schaffer. Thank you, Madame Chairman.
    Mrs. Chenoweth. Mr. Schaffer. The chair recognizes Mr. 
Peterson from Pennsylvania.
    Mr. Peterson. Thank you. I have a general question. Mr. 
Wiant raised the issue, but I think I kind of sensed it in all 
of your testimonies.
    You sort of rated who was managing the land the best, and I 
think you gave the best grades to the corporations and maybe 
lower grades to the Federal Government and private landowners, 
small private landowners.
    Is this the sort of common theme I have heard here from all 
of you that as the Federal owner of a lot of land in this 
country, we are custodian but we are not really managers; we 
are not really managing the resource? Did I sense anybody that 
wasn't saying that in some way or another?
    Does anybody want to say that is not what you said?
    Mr. Moore. To comment briefly, I think, at least from our 
perspective, our concern isn't so much about the ability and 
capability of the Federal land managers, the silviculturists 
and that to do their job.
    I think our concern is possibly more about the paperwork, 
need for paperwork requirements, other types of restrictions, 
endangered species consultations, court cases and other types 
of forest plan restrictions built by political processes that 
are tying the managers' hands, and that is the complaint that 
we have heard from a number of managers in our area.
    There are so many things that they see that they would like 
to have done on the ground. They would like to see a good 
streamlining of the processes, and we are certainly not 
advocating the total destruction of the processes, because 
there are important environmental considerations to take into 
concern, but at the same time, we are not only destroying the 
natural ecosystem. We are destroying the communities that are 
built up around these natural ecosystems because their 
economies are collapsing.
    We have a number of areas back in our part of the State 
that are having this difficulty, so I would say our answer is 
help the managers to be able to get out there and manage in the 
field.
    I think Mr. Dombeck's testimony was well taken. They see a 
number of things that they would like to do to help matters 
happen. We have seen, for example, we have a wildlife biologist 
under me on staff, and we see months and months and months of 
appeals on small timber sales, before you get on the ground and 
make something happen, so those are definite concerns that we 
see.
    Maybe private landowners or corporate entities may not be 
faced with nearly as much.
    Mr. Peterson. Anyone else?
    Mr. Lynch. Yes. I would like to comment because I was a 
Federal forest manager for a number of years, 15 years. I was a 
district ranger, and as I look at the responsibilities of the 
past now that relate to the bureaucratic process, and I really 
mean that, the bureaucratic processes that are in place, 
managers do not have the flexibility to confront the problems 
that they once did.
    In Colorado, we see private landowners that manage very 
intensively. We see landowners that have very little education 
and do virtually nothing and have unhealthy forests as a 
result.
    But when we look at State and Federal ownerships, for 
example, we have State forest side by side with Federal 
forests. The State people can address the problems, move 
quickly, have the opportunities and flexibility and policy to 
deal with those, where the Federal forest managers just cannot 
get out of the morass that they are bound with.
    These are competent people. I don't in any way wish to 
malign them. Many of them were my students, and what I see is 
that the processes have reached the point where they do not 
have the flexibility they once had.
    Mr. Wiant. I would like to second that. I think the Federal 
lands are suffering from unclear objectives. They really don't 
know exactly what they should be managing for, the products 
they need to be producing.
    The timber expertise in the Forest Service is decreasing 
all the time. They are hiring fewer and fewer foresters and 
they have been doing that for a number of years. So people that 
really know how to evaluate timber, to manage timber, are 
decreasing.
    The loss of production capacities is impacting us all. In 
the northwest, the mills haven't just shut down. Many of them 
have moved out, and once we lose those production capacities, 
even if we have use for smaller materials, it is going to be a 
terrific investment over a long time to ever recapture that 
loss.
    Mr. Moore. I would like to add one more thing briefly. We 
appreciated, we understood that Congressman Pombo had 
introduced a bill in relationship to flood control, because I 
guess California is having severe flooding problems, and to 
streamline environmental and particularly endangered species 
processes, to be able to get those projects moving and to get 
that happening.
    We wondered if a similar bill would be a possibility, 
especially in the extreme areas of wildland/urban interface 
hazard and possibly a drought situation, if that is something 
that couldn't be looked at also.
    Mr. Peterson. If I could just respond for a moment. I come 
from the east, but a lot of the managers in ANF have come from 
the west.
    I agree with you. They are highly skilled individuals and 
fine quality people, but I guess it appears that the political 
pressures from whoever have sort of veered us from what was 
normally a good management practice and a multi-use practice of 
the tremendous amount of land owned by the Federal Government.
    A lot of the rhetoric that has been out on the street is 
far from the fact, but somehow, we need to have a meaningful 
dialog so the general public understands the real issues, and 
when we deal with the real facts, we usually do the right 
things.
    I guess I would like to commend all of you for coming here 
today and sharing, but I guess somehow, we need to form a plan 
of getting away from the political pressures and back to 
allowing good, true managers to manage our national forests, 
part of our heritage, and one of our most renewable resources.
    I hope you will help us do that.
    Mrs. Chenoweth. Mr. Peterson, thank you very much. 
Gentleman, I thank you very much for taking your time and 
coming out here, and sharing with us this most valuable and 
instructive information.
    I would invite you to stay for the third panel, if you 
possibly can, and you are now excused from the witness table, 
and we will call the third panel.
    I call to the witness table Kenneth Kane from Keith Horn, 
Incorporated, consulting foresters, from Kane, Pennsylvania; 
Steven Holmer, Campaign Director of the Western Ancient Forest 
Campaign, Washington, D.C.; Ed Muckenfuss, Regional Manager, 
Westvaco Company, Summerville, South Carolina; and Bill Wall, 
Wildlife Biologist, Potlatch Corporation, Lewiston, Idaho.
    I would like to call on the gentleman from Pennsylvania, 
Mr. Peterson, to introduce Kenneth Kane.
    Mr. Peterson. Thank you, Madame Chairman. First, I would 
like to submit for the record because I was not here when the 
hearing started, so I would like to submit this statement for 
the record.
    Mrs. Chenoweth. With no objection, so ordered.
    [Statement of Hon. John Peterson may be found at end of 
hearing.]
    Mr. Peterson. Secondly, Madame Chairman, I want to thank 
you for first holding this oversight hearing and for giving me 
the opportunity to introduce a constituent and friend of mine 
who we are very pleased to have travel here from Pennsylvania 
today.
    I want to commend you for holding this hearing so we can 
get advice in finding solutions to the threats on the nation's 
forests. It is an important issue to many of us.
    I have the good fortune of representing the Allegheny 
National Forest, the only national forest in the Commonwealth 
of Pennsylvania.
    For that reason, I am especially pleased to have with us a 
constituent from Pennsylvania's fifth congressional district, 
Mr. Kenneth Kane. Mr. Kane is vice president of Keith Horn, 
Incorporated, a small private forest consulting business in 
Kane, Pennsylvania.
    Mr. Kane brings to this hearing a professional background 
of 13 years as a private forest manager, coupled with an in-
depth understanding of the health and management of the 
resources on and in the Allegheny National Forest.
    He is also chairman of the Pennsylvania Division of the 
Society of American Foresters. He is chairman of the 
Pennsylvania chapter of Association of Consulting Foresters in 
America.
    At this time, I would like to welcome Mr. Kane, and I want 
to thank you for making the journey down here.
    Mrs. Chenoweth. Mr. Kane, excuse me. Before you begin your 
testimony, as a committee policy, we have all of our witnesses 
take the oath, so would you all stand, please, and raise your 
right hand.
    Do you solemnly swear or affirm under the penalty of 
perjury that you will tell the truth, the whole truth, and 
nothing but the truth, so help you God?
    Thank you. Mr. Kane, please proceed.

    STATEMENT OF KENNETH KANE, KEITH HORN, INC., CONSULTING 
                 FORESTERS, KANE, PENNSYLVANIA

    Mr. Kane. Thank you, Congressman Peterson, for the very 
nice introduction.
    Madame Chairman and members of the Subcommittee, I 
appreciate the opportunity to join you this afternoon to 
discuss forest health in the Allegheny region, which includes 
the Allegheny National Forest.
    Let me turn now to the two questions which you have asked 
us to reply to.
    Question one, what criteria determines if a forest is 
healthy? To answer this question for the Allegheny plateau, you 
must remember that essentially the entire forest in the region 
was clear-cut between 1880 and 1930. The vast clear-cutting of 
that era virtually eliminated the beech, hemlock old-growth 
forest of the region. The hardwood forest which emerged did so 
naturally without planting.
    So, within the forests of the Allegheny region and other 
second-growth forests in the eastern hardwoods, forest health 
is typically determined by answering some basic questions.
    One, what is the condition of the crown, stem, root, and 
leaf of the tree?
    Two, is there an adequate diversity of trees, shrubs, 
flowers, and other plant species present in the forest?
    Three, are there trees of various sizes?
    Four, are preferred tree and other plant species 
regenerating naturally, or are nonpreferred species becoming 
dominant?
    It is important to emphasize that forest health criteria 
are defined by the landowner. Public forestry issues are very 
dynamic, because the objectives of the public change 
constantly. That is not the case in the private sector, where 
most forest landowners have two primary objectives, production 
of wood products and continuity of ownership.
    So where do we stand? At present, forest health in the 
Allegheny region is threatened by native and exotic insects, 
disease, and mammals.
    In addition to those problems, the forests of the region 
are simply growing old.
    Hardwood forests change dramatically between 125 and 150 
years of age. Specifically, species diversity drops from a wide 
variety of shade intolerant species to a handful of shade 
tolerant species. This decrease in tree species diversity is 
one measure of an unhealthy forest.
    The forests of the Allegheny region are recognized 
internationally for the high quality hardwood timber they 
produce. The unique unglaciated soils of the region produce the 
world's best quality black cherry in stands that reach economic 
maturity at 80 to 100 years of age.
    We have reached the point in time where the Allegheny 
plateau's biological and economic maturity coincide. Thus, we 
must address the needs to regenerate these forests for both 
financial and biological reasons.
    But in addition, the public generally prefers to hunt, 
camp, hike in maturing 70-year-old Allegheny hardwood forests 
rather than decadent 150-year-old forests.
    Having examined the criteria for a healthy forest in our 
region of the country, let me turn now to your second question, 
which is what management tools are most appropriate to maintain 
or improve forest health.
    As a practicing forester, I recommend that landowners take 
certain actions to maintain the health and vitality of the 
forests within the Allegheny region.
    One, employ sound silvicultural practices and professional 
forestry.
    Two, use modern silvicultural methods in timber harvesting 
scenarios. These practices are site-specific and model natural 
occurrences.
    Three, employ qualified resource managers to monitor forest 
conditions closely. This is necessary to follow insect 
populations and assess the effects of disease, drought, and 
other phenomena.
    Four, control large deer populations, increasing the use of 
silvicultural regeneration tools such as fence enclosures and 
herbicides. Promote sport hunting to reduce deer 
overpopulation.
    Five, use aerial application of natural pesticides. This is 
necessary to control exotic and abnormal native insect 
infestations.
    In addition to these tools that are available to the 
resource manager, I believe that Congress and the 
Administration have continuing roles to play, and given this 
opportunity, I offer two concluding suggestions for your 
consideration.
    First, you must continue to fund and promote forest 
research. Research at the Forest Service's Northeast Experiment 
Station in Warren, Pennsylvania, has provided the modern 
silvicultural methods used throughout the Allegheny region. 
Over 1,100 forest managers have attended the training sessions 
offered by the station.
    Second and finally, there is a pressing national need for 
education programs for forest landowners, professionals and the 
public. Professionals need to better understand the modern 
tools available to them. Landowners and the public need to 
better understand the forest ecosystem and the necessity of 
using sound science as the basis for management decisions.
    Thank you for the opportunity to present this statement. I 
will be happy to answer any questions.
    [Statement of Kenneth Kane may be found at end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Kane, for your very 
interesting testimony, and I would like to now call on Steve 
Holmer for your testimony.

 STATEMENT OF STEVE HOLMER, CAMPAIGN DIRECTOR, WESTERN ANCIENT 
                FOREST CAMPAIGN, WASHINGTON, DC

    Mr. Holmer. Thank you, Chairman Chenoweth. Thank you for 
this opportunity to testify.
    The Western Ancient Forest Campaign represents 
organizations and individuals nationwide who are dedicating to 
protecting forest and aquatic ecosystems on the national 
forests.
    I would like to begin by saying that I totally disagree 
with the statement that only managed forests are healthy 
forests. Our forests did just fine for millions of years before 
management was invented, and to put it plainly, the lack of 
humility before God's creation to make that kind of statement, 
I find rather astounding.
    There is increasing evidence that demonstrates that over 
the past three decades, our national forests have suffered too 
much logging, too much road building, and too much cattle 
grazing and fire suppression with little concern about the 
impact these activities have on our clean water supplies, fish 
and wildlife, recreational opportunities, and the ecological 
integrity of forest ecosystems. Too much management is the 
problem, not the solution.
    A recent mapping project by the World Wildlife Fund 
concluded that only two percent of the original forests remain 
in the lower 48 States. The Eastside Forests Scientific Society 
panel report concluded that the few remaining roadless areas in 
eastern Oregon and Washington are still threatened, and that 
very little of the old growth Ponderosa Pine ecosystem remains.
    The scientists' report recommends no logging of old-growth 
forests or trees of any species older than 150 years or greater 
than 20 inches in diameter; no logging in aquatic diversity 
areas; and to establish protected corridors along streams, 
rivers, wetlands, and lakes; no logging or road building in 
roadless areas.
    Both the PACFISH and INFISH Federal interim guidelines for 
protecting imperiled fish stocks concurred with the conclusion 
that we need to protect roadless areas in riparian zones to 
restore declining fisheries.
    These are the critical first steps toward proper management 
and rehabilitating faltering forests and aquatic systems in the 
inland west. The Sierra Nevada Ecosystem Project report came to 
similar conclusions, and also stated that timber harvest 
through its effect on forest structure, local microclimate, and 
fuel accumulation has increased fire severity more than any 
other human activity. The notion that we can salvage-log the 
forest to reduce fire risk is not supported by any empirical 
scientific evidence.
    The State of Idaho has over 960 streams which are polluted 
and rated as water quality limited by the Environmental 
Protection Agency because of too much contamination in the 
streams. Over half these streams are being degraded by logging. 
Flooding, exacerbated by logging and road building in the Coeur 
D'Alene watershed is steadily sending millions of pounds of 
lead contaminated sediments into Lake Coeur D'Alene and 
ultimately, into the city of Spokane's watershed.
    In Oregon, seven people were killed this year as a result 
of mudslides. Numerous scientific studies have been published, 
including one by the U.S. Forest Service that conclude logging 
and road building increase the risk of severity of landslides 
and flooding.
    Across the west, fish stocks continue to decline, and many 
species, such as the Coho Salmon and Bull Trout are being 
considered for listing under the Endangered Species Act.
    The private and public forests of the southeast United 
States are threatened by unsustainable logging. There are now 
over 140 chip mills in the southeast, and according to industry 
and the Forest Service, the growth-to-harvest ratio of 
softwoods in the south went negative in 1991. Further, hardwood 
forests are expected to exceed growth within the next two to 
ten years.
    This is not only evidence that the industry is 
unsustainable, but that chip mills are depleting the forests, 
thereby impacting water quality, habitats, ecosystem health, 
and local forest-dependent businesses.
    These are the facts as presented by the scientific 
community, industry, and government agencies. These are the 
real forest ecosystem health problems which this committee has 
chosen to ignore in favor of arguments that all come to the 
same conclusion, more logging.
    Claiming to address the overstocking and fuel loading 
problems caused by fire suppression and grazing cattle, the 
104th Congress passed the Salvage Logging Rider which suspended 
environmental laws and the citizens' right to have those laws 
enforced and participate in how their own lands were being 
managed, but no effort was made to address the more fundamental 
problems of too much grazing and too much fire suppression.
    Under the rider, we witnessed the logging of ancient 
forests that have been protected by the courts. Under the 
rider, the guise of logging dead and dying trees was used by 
the Forest Service to log large, live green trees.
    Unroaded areas, which represent some of our nation's last 
unprotected wilderness were entered and logged. The 
government's own interagency report on the implementation of 
the rider confirmed these abuses.
    In the aftermath of the rider, several lessons are clear. 
Our environmental laws and public processes should never again 
be suspended. Ancient forests, roadless areas, and riparian 
zones need permanent protection, and the U.S. Forest Service 
needs to be reformed and made more accountable to the public.
    To address these threats to the health of our forest 
ecosystems, we would like to make several recommendations which 
we would urge the committee to adopt.
    Prohibit new road building on the national forests and 
prohibit the use of purchaser road credits to build new roads; 
prohibit logging and road building on unstable and potentially 
unstable national forest land; restore accountability by 
reforming or abolishing off-budget funds.
    As Representative Vento mentioned, the interagency report 
concluded that the salvage fund created an incentive for the 
agency to choose logging projects when other activities such as 
prescribed fire or stream restoration would have been more 
appropriate, and this is because they get to keep most of the 
receipts by choosing salvage operations.
    The next point is to end money-losing timber sales. The 
annual report of the White House Council of Economic Advisors 
shows that the Forest Service spent $234,000,000 administering 
the timber sale program than were returned in receipts.
    Generally, the Forest Service subsidizes timber extraction 
from public lands by collecting less revenues than it spends on 
timber program costs, the report says. We urge the committee to 
end subsidized logging in the national forests.
    At Senator Craig's recent forest management workshop, the 
GAO testified that during 1995, the Forest Service spent 
$215,000,000 of the taxpayers' money that they cannot account 
for. We urge the committee to use its oversight authority to 
find out what happened to the taxpayers' $215,000,000.
    Further, we urge the committee to look at the full range of 
values our forests provide, such as clean water, fish and 
wildlife habitat, and recreational opportunities.
    According to the Forest Service's resource and planning 
assessment, by the year 2000, recreation in the national 
forests will produce over $1 billion for the economy while 
logging will only produce $3,500,000. The value of clean and 
stable water flows from our forests is estimated in the 
trillions.
    Recently, Chief Michael Dombeck testified, ``The 
unfortunate reality is that many people presently do not trust 
us to do the right thing. Until we rebuild that trust and 
strengthen those relationships, it is simply common sense that 
we avoid riparian, old growth, and roadless areas.''
    We urge the committee to support Chief Dombeck's effort to 
reform the agency and restore the public's trust by adopting 
his common-sense recommendation and the other recommendations 
in this testimony including the restoration of eastern old 
growth, since there is almost no old growth left in the east.
    The idea that we need to cut down the eastern old-growth 
forests is simply absurd. We need to restore old growth 
ecosystems in the eastern United States.
    In closing, I would like to quote a Republican president 
who helped make this a great nation by protecting some of our 
national forests, Teddy Roosevelt, who said, ``The nation 
behaves well if it treats the natural resources as assets which 
it must turn over to the next generation increased and not 
impaired in value.''
    I believe the United States is a great nation, but I feel 
that we are now risking that greatness by lacking the foresight 
and courage that made us great to begin with. We can choose to 
squander our remaining unprotected wild places, or we can be 
revered by future generations as Teddy Roosevelt is for having 
the vision and greatness to protect our nation's natural 
heritage.
    Thank you for this opportunity to testify.
    [Statement of Steve Holmer may be found at end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Holmer. The chair would now 
recognize Ed Muckenfuss, a regional manager from Westvaco 
Company.

STATEMENT OF ED MUCKENFUSS, REGIONAL MANAGER, WESTVACO COMPANY, 
                  SUMMERVILLE, SOUTH CAROLINA

    Mr. Muckenfuss. Madame Chairman and members of the 
Subcommittee, thank you for this opportunity to contribute my 
ideas on what constitutes a health forest and what management 
practices contribute to establish and maintain them.
    My name is Ed Muckenfuss, and I am Southern Regional 
Manager of Westvaco Corporation's Forest Resources Division. In 
my Region in South Carolina, we manage nearly 500,000 acres of 
company forest and advise private landowners who own another 
400,000 acres.
    Westvaco owns forest land primarily to provide a 
sustainable source of wood fiber for its mills. We also manage 
them to provide habitat for wildlife and clean water for the 
lakes and streams that adjoin them.
    The key word here is manage. We firmly believe that in 
order for a forest to be healthy, it must be actively managed.
    Healthy forests are forests that are growing vigorously and 
that have a diversity of age classes and forest types which 
enables them to resist disease and insect epidemics and helps 
to reduce the intensity of wildfires when they occur. The 
diversity of forest ages and types also provides a range of 
habitats for wildlife.
    While some percentage of old-growth habitat is desirable, 
extensive areas of old-growth conditions or any single age 
class condition puts the entire forest at risk for catastrophic 
insect attacks and wildfires.
    The photograph you see here is an aerial view of some of 
our forest in Kentucky. This forest is actively managed to 
maintain healthy tree densities and various forest types 
interspersed across the landscape.
    We consider this a healthy forest that achieves our 
objectives of providing a sustainable supply of wood fiber for 
our mill, diversity of wildlife habitats, and protection of the 
lakes and streams adjacent to the forest.
    There are criteria that we use to determine the health of 
our forests. Number one, suitability of tree species to the 
site; two, the density of the trees relative to the ability of 
the site to support them; three, diversity of age classes 
across the landscape; four, the amount of fuel loading on the 
site; five, the condition of riparian areas for protecting 
lakes and streams; six, diversity of forest types across the 
landscape; seven, the relative abundance of noxious insects and 
the disease incidence rate; and eight, the availability of 
nutrients to sustain vigorous tree growth.
    As I have said, healthy forests are the result of good, 
active management. Older forests eventually become overcrowded 
and lose their vigor, making them susceptible to disease and 
insect epidemics. Without management, these conditions set the 
stage for catastrophic events like the fires in Yellowstone 
National Park.
    Here are the management practices that we use to improve or 
maintain forest health. Number one, good inventory information; 
two, landscape scale planning that provides for protection of 
riparian areas and diversity of age classes and forest types; 
three, provisions to regenerate with tree species appropriate 
to the site; four, intermediate stand treatments to control 
density and fuel conditions; five, careful inclusion and 
management of old growth or overmature stands; six, soil 
amendments as necessary to maintain productivity for intensive 
management; and seven, effective control of insect and disease 
epidemics.
    In many ways, forests are like people. When they are young 
and growing, they usually can withstand pathogens and parasites 
with their natural defenses. As they grow older, they become 
increasingly susceptible, and therefore, require more care.
    Inadequate management has put many forests in the United 
States at risk. In some forests, neglect has skewed forests 
toward stands of older age classes and allowed many stands to 
become overcrowded and overloaded with fuels.
    In other forests, poor management practices have removed 
most of the healthy and vigorously growing trees, leaving the 
old and weak.
    In either case, these forests are ripe for epidemic of 
disease and insects and the catastrophic wildfires that often 
follow.
    We believe that by applying the management practices I have 
outlined, these forests can be returned to healthy conditions 
and provide for the needs of many generations to come. Without 
adequate levels of management, however, they will increasingly 
fall victim to catastrophic events which will result in losses 
that will deprive our children of their benefits.
    Thank you again for this opportunity to express my views on 
this important subject.
    [Statement of G. Edward Muckenfuss may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you very, very much. That is a very 
impressive picture, and I thank you for your testimony.
    The chair now recognizes Bill Wall, from my own district in 
Idaho, an outstanding wildlife biologist, and I thank you very 
much for being here with the committee this afternoon.
    Dr. Wall.

     STATEMENT OF BILL WALL, WILDLIFE BIOLOGIST, POTLATCH 
                  CORPORATION, LEWISTON, IDAHO

    Dr. Wall. Thank you, Madame Chairman and members of the 
Subcommittee. I currently serve as chair-elect of the AF&PA 
Wildlife Committee, and for the past five years, have worked to 
develop landscape management processes Potlatch Corporation in 
Idaho.
    I would like to share with you some thoughts, and I am 
going to share four key points up front, and then get into 
answering the two questions that were asked of the panel.
    First, I think we should consider that forest health should 
be equated with sustainable forest system health, not merely 
green trees.
    Second, the intermountain west is a forest system in a 
health crisis and is right now beyond acceptable biological 
risk. The application of active forest management including 
timber harvest and controlled fire or silvicultural tools for 
restoring forest system health, and analysis tools which are 
the new ones that we have been generating over the past ten 
years or so. Our capabilities have really expanded, such as 
ecological landscape classification systems, GIS-based 
landscape planning, watershed analysis are all tools that we 
can use to help guide our active forest management to restore 
health in our forests.
    Third, forest health criteria must be defined on the 
ecological capability where forested landscapes are located. 
Ecologists have described how physical land characteristics, 
weather disturbance factors interact to define different types 
of forest ecosystems across the country.
    Fourth, each region will have a different criteria which 
affects risks to various forest values, thus general health 
criteria must be applied specifically within the ecosystem one 
is addressing.
    Health and management criteria must also address several 
spacial scales from forest stands to watersheds to broader 
landscapes. We must not reach an either/or scenario of healthy 
trees or other forest values such as wildlife habitat. Rather, 
we should take an approach of both-and, healthy, diverse forest 
landscapes, healthy watersheds, as well as wildlife habitats.
    To answer the first question on some of the criteria for 
considering healthy systems, the appropriate ecological 
representation of all the floral composition and structure 
across landscapes is one key. Each forest system has a broad 
range of conditions which are necessary for healthy forest 
systems. A healthy system is one that has a full, diverse array 
of those forest structures and communities.
    Sustainable site productivity is the next key. Maintenance 
of soil characteristics which sustain the productive resilience 
of forest systems is critical. Sustainable and functional 
watersheds, quality stream conditions for salmon and fish, at 
least in our area, are dependent on functioning riparian 
habitats.
    A healthy forest is one that maintains a full complement of 
functional habitats for native species across broad landscapes 
which encompass a variety of ownerships and land management 
objectives, and finally, acceptable risk from catastrophic 
disturbance such as wildfire, disease, insect outbreaks, as 
well as flooding.
    Disturbance to forest systems, whether natural or manmade 
is necessary to maintain functioning and specific values of 
timber, water, and wildlife.
    Now, some suggestions on some of the analysis tools and 
management techniques which can be applied to achieve those 
sorts of goals.
    One, it has been interesting that industry has taken a lead 
role in the northwest in developing watershed analysis 
capabilities. These can be used to define risks to watershed 
functions from unhealthy forest conditions, to develop site-
specific best management practices for the specific watersheds 
in which they are applied rather than a cookie-cutter approach 
which we have seen out of the Federal agencies, and define 
restoration and active forest management needs for reducing 
risks within those watersheds.
    Ecological landscape classification systems help us to 
define the ecological capability of the ecosystem in which we 
are working, to understand historical disturbance regimes 
resulting in stand and landscape conditions, and to help us 
define appropriate ecological representation accross 
landscapes.
    A GIS-based landscape planning process is the new tool that 
is allowing us to begin planning for those various conditions.
    Finally, timber harvest and silvicultural methods that 
recognize the needs within these ecosystems that help us create 
the right structure and composition of vegetation across the 
landscape in addition to providing for wildlife habitat, 
functioning watersheds, and the types of economic returns that 
we need to maintain our communities in the west.
    Finally, the thing that has really impressed me in the 
opportunities that exist relative to this issue and many other 
forest and natural resource management issues are the new 
partnerships that are beginning to develop, those that are 
being developed between public and private.
    I have participated in quite a few and have been very 
excited about the outcomes of those. Also, the ability of 
industry to work at times with the Forest Service to develop 
new types of information, new tools, and to apply those to 
reach the ecological as well as economic goals that we are 
attempting to across landscapes. Thank you.
    Mrs. Chenoweth. Thank you, Dr. Wall, very much, and I thank 
the panel for their testimony.
    We will now recognize the members for questions, and I want 
to remind the members we have five minutes for questioning, and 
I would like to first recognize the gentleman from Colorado, 
Mr. Schaffer.
    Mr. Schaffer. Let me start by going back to a question that 
I had asked earlier with respect to prescribed burns. I would 
like to hear you all respond to this whole topic, the Babbitt 
proposal that has been announced and just where you see this 
fitting in in sound forest management practices, in particular, 
for Mr. Holmer's comment that no forest management would be 
preferable.
    What about this Babbitt proposal of management by 
prescribed burn?
    Mr. Holmer. Our concern has been that there has been an 
overemphasis on management. We support the idea of prescribed 
burning, and we will support thinning in the urban/wildland 
interface.
    We do feel that the old growth areas, the unroaded areas, 
the riparian zones need to be put off limits as the key first 
step to restoring the ecosystems, and I think that you will 
find that if those steps are taken, it will also do a great 
deal to help deal with the problem of polarization, because the 
most contentious timber sales that people deal with are in 
these critical areas, and so by realizing the ecological 
importance as well as the social conflict that is surrounding 
these areas, by resolving that, I think you will find that it 
is easier to come to grips with how to manage the rest of the 
landscape, and again, I think prescribed burning and 
restoration of national fire regimes is the only way that in 
the long run we are going to be able to accomplish that.
    Mr. Schaffer. Any of the others?
    Dr. Wall. Fire in many of our forest systems has always 
been a natural disturbance factor, and there are many species 
that depend on fire being introduced, but fire can also be 
catastrophic and destroy wildlife habitat as well as the types 
of riparian zones that Steve is wanting us to protect and 
maintain.
    It is a judicious use of fire that we are looking for and 
one that we can control in most cases, not to say that on 
occasion, wildfires will occur, especially in wilderness areas, 
et cetera.
    To back up and say that we should exclude fire again I 
think would be a definite mistake. Fire is an integral tool, 
and as was suggested earlier in this panel, we need to have all 
the tools in our toolkit, and we need to be able to use those 
appropriately in the appropriate times.
    Mr. Muckenfuss. Fire is an absolutely essential tool in the 
southeast. It is a matter of timing and conditions. There is no 
question that fires will burn in the southeast sooner or later.
    Through the judicious use of prescribed fire, we are able 
to apply this very important management tool with proper timing 
and under conditions which create low-intensity fires that help 
reduce fuel loading as well as to create additional benefits 
from the standpoint of habitat for wildlife and so forth.
    Fire has traditionally been used in the southeast by 
Indians and early settlers to do the same things that we 
accomplish with fire, and should we lose fire, it will change 
the entire ecosystem of the east coast for the worse.
    There is not a tool that is more important to manage 
forests and that applies no matter what snapshot in time you 
would like to pick as to what kind of forest you would like to 
have. It is extremely important for longleaf, wire-grass 
ecosystems as it is for plantations.
    Mr. Kane. I would concur that the use of fire is a critical 
tool; however, in the east, it is not as widely used as it is 
in other parts of the country because in our area, we have 
approximately 11 fire days that would qualify for prescribed 
burning.
    However, it is going to be used to a limited extent in our 
area to reestablish some species that were lost because with 
the advent of science and the internal combustion engine, the 
wildfires that ran through the east during the steam years from 
the steam locomotives really allowed more species diversity and 
allowed the oak species to be more prevalent in the current 
forest than what we believe it can be in the future forest, 
because of just the nature of the species.
    We are going to use prescribed burning even in the east, so 
it is a critical tool.
    Mr. Schaffer. Madame Chairman, I don't have any more 
questions. Thank you.
    Mrs. Chenoweth. Mr. Schaffer, thank you very much. The 
Chair now recognizes Mr. Peterson.
    Mr. Peterson. Mr. Holmer, if you were suddenly appointed by 
the President and confirmed by the Senate to be the czar over 
all of public land, when and where would we cut timber?
    Mr. Holmer. Excuse me? Would I support----
    Mr. Peterson. If you were given the role of being in charge 
of our national forests, you were just absolutely in charge, 
where and when would we cut timber, or wouldn't we?
    Mr. Holmer. That is an interesting question. Our 
organization does not support any specific level of timber 
target. We have not taken a position on no logging, but what we 
do support is the use of conservation--biology, and the latest 
scientific information.
    They are a few examples of this being conducted on a 
limited scale such as the Northwest Forest Plan. There is a new 
report out on the Sierra Nevada ecosystem, another process 
underway in the inland west in Idaho, Montana, eastern Oregon 
and Washington.
    We would want to look at the whole ecosystem. In our view, 
our forests have been seriously overcut for the past three 
decades, so it could be quite possible that we are in a deficit 
situation right now, which would mean giving the forest time to 
heal.
    Another key problem is the lack of protection for critical 
components of the ecosystem, such as old growth, roadless 
areas, and riparian zones, so restoring those areas and 
protecting those areas would be my first priority.
    Mr. Peterson. What part of the country are you from and 
where have you spent most of your personal time in the forest?
    Mr. Holmer. Actually, mostly in the east. I went to high 
school in the suburbs outside of Philadelphia, and I went to 
college at Penn State, so I have spent a fair amount of time on 
the Allegheny, and as my resume there says, I have been to 
national forests in 14 different States, and I have also had 
extensive experience with overflights and having a chance to 
see our forests from the air.
    Mr. Peterson. Do you believe the Allegheny National Forest 
has been overcut?
    Mr. Holmer. I am not familiar enough with the situation in 
the Allegheny to say that. I would say from my personal 
experience there, I was shocked at how many roads I saw. You 
can travel down certain roads seemingly in the middle of 
nowhere, but it seemed like it was a suburb because there were 
so many spur roads going off to the side to drill pads or 
timber sales or one activity after another.
    I would have to say I was somewhat shocked at how 
industrialized that forest was.
    Mr. Peterson. Who do we own the forest for?
    Mr. Holmer. Well, the forests are owned by the American 
people, and the mandate is fairly clear, to protect the full 
range of values on public lands, and there is abundant evidence 
that not all the values are being protected right now.
    When you look at the problem of clean water, when you look 
at the problem of declining biodiversity, there is every 
indication that not all the values are currently being 
protected, and when you look at the root cause, things like 
road building, logging, and grazing repeatedly come to the 
front as the reasons why these other values are being 
diminished.
    Mr. Peterson. I guess having spent my entire life very 
close to the ANF and often in the ANF, I would take some 
exception to you. I am an avid hunter myself, love to hike and 
spend time in the woods, in the forest, and I guess I would 
like to ask you how many people will go five miles off a road 
today?
    When you talk about these huge blocks that are to be locked 
up, you are talking about a minute number, part of the society 
today that will travel a mile from their car because they are 
afraid.
    I believe in having some real diversity, having some old 
growth, but how much, how big, for whom? I want to tell you, it 
is a very small part of the population that get five miles from 
their car under any circumstance in any forest.
    Mr. Holmer. I understand what you are saying, but I think 
that one of the values that these forests provide are 
fundamental ecological services, so recreation isn't always the 
key factor to look at.
    We get a lot of clean water supplies off our national 
forest lands. This last year, the city of Salem, Oregon, had to 
close down their water treatment facility because there was so 
much sediment in their streams.
    When you look at the full range that the forests provide, 
roadless areas are the key refuges for our biodiversity and 
they help control our water flows and help prevent flooding by 
remaining intact.
    There is a lot of fundamental services that most people 
don't even think about, and most economists have been unable to 
quantify up to this date.
    Mr. Peterson. I guess I am here to say for the record that 
the Allegheny River and the Clarion River that flow from the 
ANF are the finest quality water-wise today than they have been 
in many, many years, and I think it is because of good 
practices, a lot of good environmental policy.
    We have made great progress, and I can't let you get away 
with saying that we are not going in the right direction, that 
we haven't improved water quality in that region, because we 
have.
    Mr. Holmer. I appreciate you saying that, and I do know 
that there are some very beautiful places on the Allegheny that 
I enjoy visiting very much.
    Mr. Peterson. A quick question for Mr. Kane. You mentioned 
about education for the private landowner. The largest part of 
timber, at least in the east--I don't know that it is true in 
the west, is still owned by private landowners and small plots.
    Is government playing an adequate role in helping people 
understand the value of their forests?
    I know of cases where somebody only owned 20 acres. They 
sold it for a pittance, but it was worth quite a lot of money 
if it would have been marketed properly and cut properly.
    Mr. Kane. That is exactly the case. The education is truly 
a moving target. In the computer age as information is doubling 
in less than a decade, there is so much for people to know out 
there, and they own a piece of property for income and to pass 
something on to their children and for many reasons, but they 
don't take the time to truly understand the ecosystem.
    I think the education process is not only for the 
landowner, but for the general public. Very few people in the 
general public truly understand the forest and what it provides 
to them and how, and how managing the resource is so much more 
important than just hands off, because there is no way with the 
population of our society and the impacts our society has had 
on the forest ecosystem that we can say hands off, because even 
by standing back, we have touched it.
    Mr. Peterson. I would like to thank you personally and all 
of you for coming today.
    Mrs. Chenoweth. Thank you, Mr. Peterson. Bill Wall, I have 
some questions for you. That doesn't surprise you, does it?
    Dr. Wall. Not at all. Thank you.
    Mrs. Chenoweth. Among the criteria that you described, you 
mentioned the state-of-the-art forest management practices and 
controlled fire. What practices are you referring to 
specifically for the record, and do both public and private 
landowners have these practices available for their use?
    Dr. Wall. Yes, they do have them available for their use, 
but at this point, I think the timber industry has figured out, 
has taken the lead in figuring out some of the tools that we 
are applying to landscapes in understanding how to use computer 
technology and have the actual data in hand in order to apply 
those techniques.
    We have some historical mistakes to correct, and we are 
learning very rapidly with those, and I would also suggest that 
our abilities to gather data, process that information and 
develop an overall feedback and learning process as we apply 
these things, the buzzword is adaptive management, is there 
inside industry and they are taking those sorts of lead roles 
at this point.
    We have the opportunity to work with our neighbors on 
public lands to help generate the types of information that we 
need and to work to apply that information.
    The specific techniques on the ground that are beginning to 
be applied are a completely different way of road building as 
well as timber harvesting techniques that are far more 
sensitive, that take into consideration physical site 
characteristics, and then turn around and apply specific types 
of applications to specific types of land that historically, we 
were not able to quantify or classify in the past.
    Using those sorts of techniques has allowed us to 
understand much better how to manage our forest resource and to 
apply that, not only to the timber values that we are seeking, 
but also to maintenance of biodiversity of wildlife habitat as 
well as our functioning riparian and aquatic systems.
    Mrs. Chenoweth. You recommended using a coarse filter 
approach for landscape planning. Could you help me understand 
that better and also explain it for the record?
    Dr. Wall. Sure. There was a lot of discussion earlier from 
various folks on this panel about a diverse array of structures 
and composition across the landscape.
    A coarse filter approach is an approach to a broad scale 
landscape rather than a stand-by-stand approach, although we 
recognize the need to use the stand-by-stand approach, in 
taking the full complement of wildlife species that exist 
across that landscape, quantifying the types of habitats needed 
by those various species, and then through a planning process, 
making sure that we apply the appropriate techniques across 
space and through time to maintain the habitats necessary to 
maintain the species that we would find in any one location.
    Along with that is an understanding of the ecological 
background or capability in which you are working which can be 
completely different depending on where you are. Even in Idaho, 
the fact that we have on our land base specifically a range 
from 40 or about 35 inches of rainfall all the way up to 80 
inches of rainfall means that we have to think through the 
application of maintaining habitats and the application of 
specific practices depending even on just rainfall conditions.
    What we are talking about is taking a broader scale 
approach to understanding how to maintain habitat through time 
and across space.
    Mrs. Chenoweth. And Dr. Wall, as you take that approach, 
are you considering the native species in the entire course of 
the forest? Are we moving back to replanting and reforesting to 
the native species so that they will be more resistant to 
attack, whether it be fire or insects or whatever it might be?
    Dr. Wall. Most definitely. In fact, we are depending again 
on our ability to classify the site. We are putting species and 
in some cases, five different species within one stand back on 
specific sites.
    Potlatch specifically has worked with the Forest Service 
through time to develop resistant strains of white pine, and in 
order to bring white pine back into the ecosystem which was 
native there, it is necessary to return to some early 
successional stages, because that species is not shade tolerant 
and does need sunlight.
    We are actively working to restore some of the white pine 
sites as well as maintaining all of the rest of the native 
species that exist in northern Idaho on our land base.
    Mrs. Chenoweth. I have one more question for you, Dr. Wall. 
Will the Forest Service's ecoregion assessments, such as the 
Columbia River Basin ecosystem management project, help address 
the issues that we are trying to address as far as healthy 
forests and necessary criteria? Will it help on the public 
lands?
    What is your feeling about that?
    Dr. Wall. Well, it has tremendous potential, but at the 
same time, potential and reality are two different things, and 
the ability to apply the understanding that is gained from 
broad scale assessments is, as we well recognize, a problem 
associated with the realities of regulations and the 
bureaucracy in which they work.
    The other thing that I would suggest is that broad scale 
looks help us set context for the large scale. Where we make 
the mistake, I think, is in learning how to apply ecosystem 
management is trying to take information from the broad scale 
and bringing it all the way down to a very fine scale or local 
situation.
    What, in my mind, has to happen after working in ecosystem 
management concepts for the past ten years is that we need to 
understand that broad scale context, but at the same time, we 
have to build site-specific strategies underneath that in order 
to achieve the specific goals, so we end up working from stands 
to watersheds, to landscapes, and then this broad scale 
context, so what we end up with is a simultaneous top-down 
approach which is a look at the broad scale, but building with 
good, fine information and capability at the fine scale and 
meeting somewhere in between in order to meet the objectives 
that we are setting for ourselves.
    Mrs. Chenoweth. Thank you, Dr. Wall. I appreciate all of 
your testimony very, very much. Mr. Holmer, I really appreciate 
your testimony today. We haven't always agreed, and most times, 
we don't, do we? But I am really surprised that no other 
environmental organizations wanted to take the opportunity to 
testify today.
    I appreciate your being here, I really do. I would like for 
you to tell your colleagues in the environmental community that 
the record will remain open for about ten days if they would 
like to submit testimony for the record.
    I also would like to invite you very sincerely to our 
forests out in the west. The dynamics out there are quite 
different than the forests in the east, and our fuel load in 
many areas in western forests are about 12 feet tall, and it 
really is a puzzle as to what to do. Because of our very strict 
ambient air quality standards, we can't even burn trash piles, 
so we really wonder about how far we can go in managing the 
forest by fire.
    I thank you very much for your testimony, gentlemen, all of 
you. Thank you very much. I wish we had more time, but I will 
study your testimony and be very open to hear from any of you 
any time. Thank you very much.
    [Whereupon, at 4:40 p.m., the Subcommittee was adjourned; 
and the following was submitted for the record:]

2Statement of John E. Peterson, a U.S. Representative from Pennsylvania

    Madame Chairman, it's a pleasure to be here today to 
participate in this oversight hearing in the Forest and Forest 
Health Subcommittee. This hearing is especially important to me 
as I represent the only national forest in Pennsylvania, the 
Allegheny National Forest. I look forward to the dialogue we 
are about to open concerning the management of our nation's 
forests and criteria for determining healthy forests.
    The Allegheny National Forest (ANF), more than 500,000 
acres, lies completely within my Congressional District (PA-5). 
The ANF is a unique and diverse asset that is enjoyed by 
residents of the Commonwealth and visitors from across the 
nation.
    Although my views about the beauty and diversity of the 
Forest are subjective, the ANF does indeed have a very long 
list of attributes. Nearing the top of that list is worldwide 
recognition of the hardwood timber that grows on the Forest, 
black cherry in particular. In fact, the ANF is the single-
largest source of high-quality black cherry.
    While many of us are familiar with forest health problems 
as they relate to Western states, the forest health concerns of 
Eastern forests can be quite different. However, one common, 
pervasive problem is weather. On the ANF, it has been periodic 
drought that has caused notable damage. Specifically, in 1988 
and 1989 almost 18,000 acres experienced significant oak 
mortality. Also, tornadoes and hail storm damage has been 
detrimental to health of the Forest.
    As an Eastern forest, the ANF experiences threats from 
exotic sources like the forest tent caterpillar, gypsy moth, 
and cherry scallop shell moth. In 1994 alone, cherry scallop 
shell moth severely defoliated cherry on close to 40 percent of 
the ANF as it was the primary tree pest. Given these problems 
of such complex nature, research becomes a prime tool in 
determining methods to treat and prevent repeated instances.
    Madame Chairman, I would be remiss if I did not mention how 
pleased I am to have with us here today a constituent from my 
District, Mr. Kenneth Kane. Mr. Kane is Vice President of Keith 
Horn, Incorporated, a small group of consulting foresters from 
Kane, PA. I believe Mr. Kane's expertise in the field of 
private forestry as a hands-on manager makes him uniquely 
qualified to testify about forest management tools and the 
criteria of determining a healthy forest.
    I look forward to hearing from all of our panelists today 
as this Subcommittee seeks answers to these very important 
questions concerning the health and longevity of our nation's 
resources.

                                ------                                


Statementby the Honorable George Radanovich, a U.S. Representative from 
                               California

    Thank you, Chairman Chenoweth, for providing this forum 
today to discuss the issue of forest health. No single issue is 
more important in this Subcommittee than addressing the long-
term health of our federal forests. It is just that simple.
    Your decision to focus this hearing on ``what criteria 
should be used to determine if a forest is healthy or 
unhealthy, and what management tools are most appropriate for 
maintaining or improving forest health,'' is a sound one. In 
order to better address the needs of the forest, we must first 
understand both what has worked and what we have done wrong in 
our management of this valuable resource.
    Furthermore, we need to re-examine the role of the courts 
in our forest management plans. Today, the laws guiding federal 
forest lands are often made not by sound scientific evidence, 
but instead by the courts. Lawsuits filed by extreme 
environmental organizations have contributed to the substantial 
reduction in timber harvests in recent years--including the 
salvage of dead, dying and diseased timber necessary to reduce 
the fuel load that has built up in our national forests. As we 
move forward in this process, we must remember that lawyers and 
judges don't improve the health of our forests, forest managers 
do.
    Our national forests--I believe--are in critical condition. 
The volume of dead, dying and diseased trees has reached 
epidemic level in recent years. These severe conditions have 
produced a rash of wildfires in recent years, destroying 
wildlife and habitat and forcing a substantial reduction in 
timber harvest levels not only in my district, but also the 
entire nation. For the sake of our forests, we must reverse 
this disheartening trend.
    Sound science, education and a recognition that the forests 
provide both an ecological and economic role in society are 
necessary in order to move away from the conflict and 
controversy that has surrounded our forest debates and towards 
a locally-driven consensus-based forest management program. A 
forest is a sustainable resource. If properly managed, it can 
provide equally for both the environment and the economy. A 
healthy forest is a win-win for both the environment and the 
communities who depend on the forest for their livelihoods. 
That is why we must place forest health legislation at the top 
of our agenda in this Subcommittee.
    Again, thank you Chairman Chenoweth for putting this 
hearing together today. I look forward to the testimony of our 
witnesses today as we begin a very important dialogue on the 
management of our federal forests.

                                ------                                


   Statement of Harry V. Wiant, Jr., President, Society of American 
       Foresters, on behalf of myself as a professional forester

     Mrs. Chairman, my name is Harry V. Wiant, Jr., President 
of the Society of American Foresters (SAF). The over 18,600 
members of the Society constitute the scientific and 
educational association representing the profession of forestry 
in the United States. SAF's primary objective is to advance the 
science, technology, education, and practice of professional 
forestry for the benefit of society. We are ethically bound to 
advocate and practice land management consistent with 
ecologically sound principles. I am especially pleased to be 
here today to discuss the subject of Forest Health and to thank 
the Subcommittee for its continued support of professional 
forestry. I thank the Chair for the opportunity.
    The public policy activities of SAF are grounded in 
scientific knowledge and professional judgment. From this 
perspective we review proposed forestry and related natural 
resource programs to determine their adequacy to meet stated 
objectives and public needs.
    I wish to point out that I speak here today in two distinct 
capacities. First, I will address the views of the elected 
Council of the Society of American Foresters as expressed in 
its recent report entitled A Framework for Considering Forest 
Health and Productivity Issues prepared by SAF's National Task 
Force on Forest Health and Productivity. I wish to submit the 
full report for the record. I will also speak as a forester and 
citizen independent of the Society of American Foresters who is 
concerned with forest health issues.
    SAF has been involved in maintaining the health and 
productivity of American forests since Gifford Pinchot, first 
chief of the Forest Service, founded the organization in 1900. 
As a diverse organization encompassing all facets of forest 
management, the concept of forest health is one we have 
struggled with in recent years. Our recent report comes to 
these conclusions:
    Professional foresters believe there are serious forest 
health and productivity questions in many parts of the country.
    Forest health is an informal and technically inexact term.
    Assessment of forest health and forest productivity 
requires an understanding of both the condition of the forest 
and the objectives for the management of that forest; 
recognizing that objectives are set by landowners be they 
private, public, tribal or trust, and also by society through 
policy and regulation.
    Forest health is determined at the local level; therefore, 
a single national prescription to achieve healthy forests is 
inappropriate.
    I will now express my personal views, once again pointing 
out that these are not necessarily the opinions of the Society 
of American Foresters, which I would like noted in the record.
    As humans, we experience the joys of birth, the vigor of 
youth, slowing down with age, and, finally, death. With proper 
attention to health, our productive years may be extended. Few 
of us believe a ``hands-off'' approach is appropriate to 
maintain human health. Trees, and forests, go through similar 
phases. Believing that a vigorously growing forest, within the 
limitations of site quality and age, that is not seriously 
threatened by insects, diseases, fire, or other hazards is 
healthy, my over 40 years of experience as a forester leads me 
to the firm convictions that:
    A well-managed forest (along a spectrum from intensive 
management to wilderness management), with management 
addressing landowner or societal objectives, is the healthiest 
possible.
    In an unmanaged forest, there is no opportunity to address 
declining health.
    Picture a well-managed 5,000-acre forest, comprised of 
trees well adapted to the site, and being managed with a 
rotation age (the age at which the final harvest of trees 
occurs) of 50 years. After 50 years of management, 100 acres 
(perhaps not in a single location on the forest) are being 
regenerated by natural or artificial means, 100 acres have 1-
year-old seedlings, etc., with 100 acres ready for the final 
harvest. Logging and access roads are well engineered, 
regeneration is prompt, and the soil productivity is 
maintained.
    Hazards to forest health, such as fire, insects, and 
diseases, generally are most damaging to trees of given ages. 
The age-class distribution of the well-managed forest minimizes 
those risks. With proper intermediate cuts (cuts made to 
provide spacing for crop trees to maintain vigorous growth, to 
salvage diseased and damaged trees, etc.), productivity and 
biodiversity are generally maximized.
    The criteria to judge whether a forest is healthy becomes 
obvious:
    Soil productivity is protected and maintained with well-
engineered logging and access roads and prompt regeneration.
    The forest is comprised of species well adapted to the 
site.
    There is an approximately balanced age-class distribution.
    Well-maintained logging and access roads facilitate forest 
management and protection.
    Fuel levels, diseases, insects, and other potential hazards 
(deer, for example) are at reasonable levels.
    The management tools necessary to maintain or improve 
forest health are evident also, including:
    An adequate cadre of professional foresters, wildlife 
managers, recreation specialists, engineers, hydrologists, and 
others is available to provide the expertise needed to produce 
the commodity and non-commodity values desired.
    There is flexibility to manage the forest, unhampered by 
poorly conceived ``environmental'' laws, frivolous appeals, and 
tax codes which discourage long-term investments in timber 
management.
    There are strong forest research programs in the USDA 
Forest Service, universities, and the private sector.
    Forest management remains science based, and the 
``toolkit'' available to managers (prescribed fire, herbicides, 
selection method, clearcutting, etc.) is maintained.
    To put this in few words, the cure to our forest health 
problems is more and not less forest management! The primary 
responsibility for managing our nation's forests should be in 
the hands of those best qualified by training and experience, 
the foresters.
    Thank you.
                                ------                                


 Statement of Hon. Stephen H. Schoenholtz, Associate Professor, Forest 
       and Wildlife Research Center, Mississippi State University

    Madam Chairman, Committee Members:
    Thank you for the opportunity to present my views on useful 
criteria to assess forest health, and management tools 
appropriate to maintain or improve forest health. Forest health 
means different things to different people depending on 
differences in forest management objectives and philosophies. 
Therefore, defining forest health is currently a topic of 
intense debate. There is general agreement that our well-being 
and the well-being of future generations depends on productive, 
sustainable, healthy forests. However, some perceptions of 
forest health vary depending on individual preferences for 
forest use. To manage and maintain our forests in an acceptable 
state for future generations, requires us to define forest 
health broadly enough to encompass the many facets of forest 
ecosystems.
    Evaluating forest health is a daunting task. Forest 
components such as plants, animals, soil, water, and air have 
many complex interactions that we may recognize, but do not 
fully understand. Evaluating and monitoring health of some 
components may be difficult and/or expensive. Forests are 
constantly changing. This must be recognized when assessing 
their health. Some indicators of forest health at one stage of 
forest development may not be important at other stages. 
Furthermore, separating human-induced change (e.g. increased 
ozone or acidic deposition, historic farming, tree harvesting, 
burning) from natural change (e.g. wildfire, insect outbreaks, 
severe storms) can be difficult. Finally, the question of scale 
must be addressed in the assessment of forest health; that is, 
forest health can be considered at the stand level (10's of 
acres) or at regional or national levels (millions of acres).
    What do we look for when we try to assess forest health? We 
must keep in mind that forests consist of components in 
addition to trees. These components include other vegetation, 
animals, soil, air, and water. An assessment of forest health, 
therefore, should consider key indicators that can be measured 
or described periodically to identify trends. Key indicators 
should also effectively integrate the status of all forest 
ecosystem components. It is neither possible nor is it 
necessary to consider all of the processes and components of a 
forest ecosystem in order to make useful assessments about 
forest health or the consequences of forest management for 
forest health. We must focus our efforts on identifying key 
indicators, the knowledge of which will permit acceptably 
accurate assessments of forest health. We must remember that 
some key indicators of forest health may vary among different 
forest ecosystems, among different spatial and temporal scales, 
and among different scientific and managerial objectives.
    There is great merit in trying to identify indicators of 
forest health in spite of the difficulties involved because 
these indicators are essential for understanding and predicting 
forest health. To be useful in society over a range of 
ecological and socioeconomic situations, key forest health 
indicators should meet the following suitability criteria 
(after Doran and Parkin 1994): integrate ecosystem properties 
and processes; be accessible to many users and applicable to 
field conditions; be sensitive to variations in management and 
climate; and where possible, be components of existing data 
bases.
    Measurements of forest vegetation meet these suitability 
criteria. Vegetation is often the component of primary concern 
when assessing forest health. However, it also provides habitat 
for animal communities and it interacts with other ecosystem 
components such as soil, air, and water. Forest ecosystem 
health must include a level of acceptable plant productivity. 
This productivity depends on development of efficient leaf area 
and on maintaining low stress levels in plants. This, in turn 
depends on the ability of the soil to supply necessary 
nutrients and water.
    A list of basic forest vegetation indicators includes: age; 
structure; crown condition; species composition; species 
diversity; growth rate; mortality rate; foliar injury; species 
replacement patterns; regeneration rate; presence of insects or 
disease; and presence of exotic species.
    We have a good understanding of expected temporal patterns 
in many forest ecosystem types. If these criteria indicate 
deviations from expected patterns, then management practices to 
maintain or enhance forest health should be considered.
    These management alternatives include: removal of 
undesirable species; thinning to appropriate tree density; 
supplemental planting; use of controlled burning; 
fertilization; manipulating vegetation to create specific 
habitat; and imposing stricter air quality standards.
    Soil is recognized as a critical component of forest 
ecosystems and, as such, quality of soil has a profound effect 
on the health and productivity of a given ecosystem. Soil is a 
dynamic, living, management-responsive resource whose condition 
is vital to both forest ecosystem function and to global 
balance. Health and quality of soils determine plant, animal, 
and human health. Criteria for indicators of soil quality and 
health relate mainly to their utility in defining ecosystem 
processes and integrating physical, chemical, and biological 
properties, their sensitivity to management and climatic 
variations, and their accessibility and utility to society. 
Ultimate choice of specific indicators for assessing soil 
quality and health will depend upon identification of 
strategies for sustainable management of our forest resources.
    There is a large range of soil attributes, such as 
chemical, physical, and biological properties and processes 
that can be used to indicate soil quality. Some of these 
attributes have wide utility and can serve a range of purposes.
    These basic soil indicators include (after Doran and Parkin 
1994): soil texture; maximum rooting depth; soil bulk density 
and infiltration; plant-available water capacity; total organic 
carbon and nitrogen; pH; electrical conductivity; and soil 
strength.
    Other measurements will probably be needed depending on 
management objectives, local conditions, and existing data 
bases.
    Our knowledge of factors affecting forest health is 
incomplete. To be acceptable evidence of change in forest 
health these conditions must be met: (1) changes in vegetation 
must be attributable to differences in environmental conditions 
(e.g. soil properties, air quality, climate); (2) changes must 
be evident for a sufficient time so that short-term, temporary 
differences are not mistaken; and (3) judgements should be 
based on adequate knowledge of forest factors affecting health.
    Monitoring forest health will require manipulations of 
large volumes of spatial and time-dependent environmental data. 
This aspect of monitoring should be developed within a 
Geographic Information System environment that can accommodate 
incorporation of new variables and can be developed into an 
adaptive management tool.
    Avoiding degradation of forest health is achieved by 
accepting management techniques that do not adversely affect 
the forest or the quality of the environment in which the 
forest grows. If a negative effect is an unavoidable 
consequence of the management goal, then future forest health 
problems need to be averted by incorporating the appropriate 
ameliorative techniques into management decisions for the 
forest. This requires an understanding of what has been changed 
in a negative way and the correct ameliorative practice needed 
to restore forest health.
    Although we lack empirical evidence for judging the degree 
to which some criteria can be altered without concomitant loss 
of forest health, we must harness what we know about forest 
ecosystem function in a form that is useful for managers and 
policy makers in order to help those responsible for making 
effective decisions about forest management and environmental 
regulations. The forest management decision process should be 
based on potential impacts to indicators of forest ecosystem 
health. Since our knowledge base is incomplete it is essential 
that experience, feedback, and adaptability play prominent 
roles in any assessment of forest health.
    Literature Cited:
    Doran, J.W., and T.B. Parkin. 1994. Defining and assessing 
soil quality. Chapter 1. In J.W.
    Doran, D.C. Coleman, D.F. Bezdicek, and B.A. Stewart 
(eds.), Defining Soil Quality for a Sustainable Environment, 
SSSA Special Publication Number 35, Am. Soc. Agronomy, Madison, 
WI.

                                ------                                


 Statement of Mike Dombeck, Chief, Forest Service, U.S. Department of 
                              Agriculture

    Madam Chairman and members of the Subcommittee:
    I am pleased to appear before this subcommittee for the 
first time as Chief of the Forest Service. As some of you may 
know, I am no stranger to the Forest Service, having grown up 
25 miles from a town of 1,500 people in northern Wisconsin's 
beautiful lake country, in the Chequamegon National Forest. In 
my Forest Service career, I have worked at various levels of 
the organization in the West, Midwest, and Washington D.C., 
before going to the Department of the Interior. I am glad to be 
back. I am accompanied today by Dr. Ann Bartuska, Director of 
our Forest Health Protection Staff.

    Success Stories in Forest Ecosystem Restoration

    Today, I will begin my testimony with several concrete 
examples of efforts to restore the health of our nations 
forests. These examples demonstrate we can improve the 
conditions of forest ecosystems.

    Longleaf Pine in the Southeastern United States

    Of all the southern pines, many consider the longleaf pine 
the most valuable in terms of quality of wood products, the 
most aesthetically pleasing, and the most resistant to fire and 
to insect and disease attacks. In presettlement times, 
approximately 60 million acres of longleaf pine stands extended 
from East Texas through the lower coastal plain to Virginia. 
This ecosystem was maintained by frequent low-intensity fire 
from lightning strikes or human-caused ignition. By the early 
1900's, the area of longleaf pine forests had been reduced to 
about 3 million acres, mainly due to the exclusion of fire from 
the ecosystem and because of extensive conversion of forest 
lands to agricultural uses.
    We are now artificially regenerating longleaf pine on the 
most appropriate sites where it originally grew. We work with 
other federal agencies, state forestry organizations and 
private land owners in this effort. We are also involved in 
cooperative research on longleaf pine ecosystems with partners 
such as the Alabama Alliance with members representing Tall 
Timbers Research, Inc., universities, private landowners, and 
environmental organizations. The Forest Service is now making 
restoration of longleaf pine ecosystems a priority as the 
national forests revise their land and resource management 
plans. Through these efforts, we are establishing new stands of 
longleaf pine and are providing a wide array of ecological, 
social and economic benefits.

    Seedling Resistance to White Pine Blister Rust

    In 1909 and 1910, white pine blister rust was from 
contaminated nursery stock from Europe and was introduced to 
the east and west coasts. The first infection in Idaho was 
discovered on the Cour D'Alene National Forest in 1923. Since 
then, it has spread throughout the white forest pine type in 
Washington, Oregon, Idaho, and western Montana. In the west, 
blister rust has typically killed 90 percent or more of the 
western white pine. Stands where white pine formally dominated 
have been converted to grand fir, cedar, hemlock and Douglas-
fir. Control efforts were largely successful in the east, but 
proved ineffective in the vast expanse of western wildlands.
    Disease-resistant white pines were observed in infected 
areas. In the 1950's and 1960's, we began a successful breeding 
program to develop resistant white pines. Today, we have saved 
the species from extinction and are reintroducing resistant 
white pine seedlings as fast as we can working toward the 
restoration of the western white pine ecosystem in our Northern 
Region.

    Prescribed Fire and Thinning on the Boise National Forest

    The past decade brought severe drought and fire to the 
Boise National Forest in south central Idaho. Catastrophic 
wildfires burned as never before and the damage to the forest 
ecosystem and dependent communities has been severe. The 
conditions that have made the Boise so susceptible to 
catastrophic fire are evident. Once fire resistant forests 
dominated by ponderosa pine have been replaced by far more 
dense stands of trees--including many of species that would be 
naturally limited--existing under conditions that cannot be 
sustained. These overstocked, highly stressed stands have 
resulted in fuel loads that, when ignited, experience very 
largestand-replacement fires far more often than historical 
conditions provided.
    The Boise National Forest has been a leader in identifying 
addressing forest health problems in ponderosa pine ecosystems. 
Using the latest technology to identify areas at highest risk 
to catastrophic fire, the Boise prepared over 16,000 acres for 
prescribed burning this year. Through the increased use of 
prescribed fire and landscape-wide thinnings, we are changing 
tree composition, stand structure, and tree density to restore 
ponderosa pine ecosystems. The value of this work is obvious. 
It costs $20 to $50 an acre for prescribed burning compared to 
$400 to $4,000 an acre to suppress wildfires.
    Before turning to the issue of forest health and how to 
measure it, I would like to talk about the broader issue of 
management of National Forest Systems (NFS) lands.

    Management of The National Forests

    There is an ongoing dialogue in this nation over how 
national forests and rangelands should be managed. This 
dialogue is healthy. Dialogue and information are the essence 
of democracy. The people we serve, all of the people, are now 
more fully engaged in defining our course. The task for the 
Forest Service is not to dictate the outcome. Rather, we need 
to be the facilitators, the suppliers of knowledge and 
expertise, the educators and communicators who help people 
search for solutions.
    Today, faced with competing demands, new pressures on the 
land and greater challenges than ever before, resource 
management has become more contentious and more heated. We in 
this room can help to change that. I believe that if we work 
together, we can usher in a new era of resource stewardship and 
a deeper commitment to conservation; a commitment marked by a 
willingness to hear all sides of the debate; a commitment to 
remain open and responsive to new ideas, new values, and new 
information; a commitment to leave our lands healthier and our 
waters cleaner.
    I call this commitment of working with people to maintain 
and restore the health of the land, collaborative stewardship. 
Collaborative stewardship rests on one very basic premise: We 
simply cannot meet the needs of people if we do not first 
secure the health of the land.

    Forest Health in the United States

    While our forests are generally healthy, past timber 
harvest practices such as selective removal of pine overstory 
in the Inland West with the subsequent ingrowth of fir 
understory and the elimination of fire from these fire-
dependent ecosystems have increased the risk of catastrophic 
wildfires, and increased the severity of drought, insect 
infestation, and disease. Serious forest health problems do 
exist and forest management practices must be improved based on 
the best available science.
    Most people support the goal of sustaining healthy forest 
ecosystems. Yet, over the past year, the words ``forest 
health'' have become unnecessarily value laden and incorrectly 
characterized to imply ``log it to save it.'' If we are to move 
beyond the divisiveness associated with implementation of the 
salvage rider, we must begin a more productive and credible 
dialogue about ``forest health.'' To so do we must abide by 
three principles.
    First, unhealthy conditions in our forests developed over 
many decades--any solution will require time and commitment to 
implement. We must look at restoration of forest health as an 
investment: an investment in the land; an investment for our 
children's futures; an investment that will ensure productive, 
healthy and diverse national forests.
    Second, restoring forest health in not simply a forestry 
issue. A healthy forest is one that maintains the function, 
diversity, and resiliency of all its components, such as 
wildlife and fish habitat, riparian areas, soils, rangelands, 
and economic potential and will require active management. It 
will require road maintenance and obliteration; use of 
prescribed fire; grazing management; thinning of green trees; 
salvage; and, other forest management practices. We must use 
all available tools and continue our search for new ones.
    Third, we must more effectively communicate the many 
environmental and economic benefits of restoring forest health 
as well as the consequences of inaction. If people do not 
support restoration of forest health, then all of our best 
efforts will be wasted.
    I would like to concentrate my remarks today on how we can 
work together to develop a strong network of healthy forests.
    Forest ecosystems are dynamic and ever changing. We now 
know the futility of trying to maintain static and predictable 
forest conditions. We recognize that natural disturbances such 
as fire, flood, insects, disease, and hurricanes are not only 
inevitable, they are necessary to maintain the health, 
diversity, and productivity of a forest ecosystem. 
Understanding the role and function of natural disturbances and 
the effects of human-induced ones is prerequisite to restoring 
and sustaining healthy ecosystems. How we integrate these 
relatively straightforward concepts into our restoration 
efforts is the challenge.

    Inventory and Assessments

    Establishing priorities for restoration projects requires a 
clear understanding of forest ecosystem conditions and trends. 
Programs such as Forest Inventory and Analysis and Forest 
Health Monitoring provide information to assess national 
conditions and trends. These data assist us in the development 
of regional assessments such as the Interior Columbia River 
Basin Assessment, the Sierra Nevada Ecosystem Project, and the 
Southern Appalachian Assessment. At this regional scale, all of 
the critical issues are described, alternative solutions 
proposed, and implementation considerations identified as 
background material for potential land management decisions. 
The point is that without good base-line data, we cannot make 
good management decisions.

    Actions

    The Forest Service has identified a series of management 
actions to address the critical issues of forest health 
mentioned. These include:
    <bullet>Increasing the role of prescribed fire and fuels 
treatment;
    <bullet>In partnership with the Animal and Plant Inspection 
Service, reducing the introduction, spread, impact and increase 
control of exotic pests--both plant and animal;
    <bullet>Accelerating restoration of riparian functions;
    <bullet>Increasing thinning in dense forests;
    <bullet>Increasing monitoring of forested and rangeland 
ecosystems;
    <bullet>Increasing use of science in resource-decision 
making;
    <bullet>Increasing technical and financial assistance to 
non-industrial private forest (NIPF) landowners.
    The Forest Service will work with its partners using these 
priority actions to address critical forest health issues.
    Specifically, the FY 1998 budget proposes a significant 
increase in fuels management under our wildland fire management 
proposal. The fact is we have less of a ``fire'' problem then 
we do a ``fuels'' problem. We must make fuels management a 
significant part of our overall fire management program and, 
ultimately, this investment in fuels reduction will result in 
long term savings in fire suppression costs. We have also 
proposed increases for timber stand improvement activities and 
forest vegetation management. We hope you will support the 1998 
budget proposal.
    In addition, we will shortly share with you a legislative 
proposal to create a new permanent fund called the ``Forest 
Ecosystem Restoration and Maintenance Fund''. This fund would 
provide additional resources for reducing fire hazards and 
improving the structure and health of forests.
    Another specific action involves cooperative efforts 
encouraged by our State and Private Forestry programs. 
Increasingly, the nation is dependent on non-industrial private 
forest lands (NIPF), which comprise 50 percent of privately 
owned forest lands, to meet timber demands. Some NIPF lands are 
not as healthy or productive as the owners would like. The 
Forest Stewardship Program and the Stewardship Incentives 
Program provide technical and financial assistance to NIPF 
owners in meeting their objectives for good land stewardship.
    Other programs such as Economic Assistance and Agroforestry 
help develop the linkages between healthy wildland communities 
and healthy human communities. The Urban and Community Forestry 
program provides financial and technical assistance to 
communities in how to plant species of trees that are less 
likely to succumb to insects and diseases and other damaging 
agents. As you can see, forest health is not simply a salvage 
issue; it is an ecosystem restoration issue with broad 
opportunities and complex solutions.

    One Approach to Forest Ecosystem Restoration

    An outstanding example of the type of collaboration 
necessary to restore forest health is happening in the eastside 
forest ecosystems of Oregon. A blue ribbon panel of scientists 
convened by Governor Kitzhaber identified ways we could speed 
the healing of these ecosystems, methods which may be broadly 
applicable to all forested regions of the West. The Kitzhaber 
report embraces the full spectrum of forest and watershed 
management and restoration activities such as riparian 
restoration, noxious weed management, prescribed fire, grazing 
management, and thinning. It also contains a common sense 
recommendation that initial forest ecosystem restoration 
efforts focus on less controversial areas avoiding riparian, 
old growth, and roadless areas.
    I have asked Governor Kitzhaber, Congressman Bob Smith of 
Oregon, and a broad range of public interests--environmental 
and industry--how we can move forward and begin the restoration 
of the eastside forest ecosystems. Last week I spoke with the 
Governor and his collaborative citizen's council. I have 
already met with the heads of the Fish and Wildlife Service, 
National Marine Fisheries Service, the Environmental Protection 
Agency, and the Bureau of Land Management to discuss how we can 
constructively employ the approach outlined by Governor 
Kitzhaber. All parties have expressed strong interest in moving 
ahead with restoration of our forest ecosystems. I believe this 
is the sort of approach that will help rebuild trust and 
support for forest ecosystem restoration activities.

    Criteria and Indicators for Forest Health

    Because the issue of forest health transcends national 
boundaries, we have been working internationally to address 
forest health concerns. Building on our Forest Inventory and 
Analysis and Forest Health Monitoring programs, the United 
States, as one of 12 countries, was signatory in 1995 to the 
Santiago Declaration. Signatory countries contain more than 40 
per cent of the world's temperate and boreal forest lands. This 
landmark document lists 7 criteria that characterize how we 
must manage for sustainable forestry along with indicators for 
measuring sustainability. The criteria include: conservation of 
biological diversity; maintenance of productive capacity of 
forest ecosystems; maintenance of ecosystem health and 
vitality; conservation and maintenance of soil and water 
resources; maintenance of forest contribution to global carbon 
cycles; maintenance and enhancement of long-term socioeconomic 
benefits to meet the needs of societies; and legal, 
institutional and economic framework for forest conservation 
and sustainable management.

    Summary

    The message I wish to leave you with is that we can 
accelerate the healing of our forests. And we can do so in a 
balanced and measured approach. This is not about the ``cut it 
to save it'' misnomer that presently surrounds the words 
``forest health''. It is about sitting at the same table with 
the regulatory agencies, state, other land managers, and 
citizens and taking action before we are confronted with 
incredibly costly--both socially and environmentally--
conflagrations.
    The consequences of inaction far outweigh the fiscal costs 
of forest ecosystem restoration. Catastrophic events such as 
floods, fire and landslides, are occurring at increasing 
frequencies with ever more devastating consequences. Noxious 
weeds are diminishing the productivity of hundreds of thousands 
of acres of public land. Devastating fires are increasingly 
encroaching upon the urban-forest interface. Last year alone, 
over 6 million acres of public land burned. Healthy forests 
will provide the resiliency to minimize the severe consequences 
of these events. Without decisive action these problems will 
only worsen.
    Restoration will not be quick. And in fact, it will be very 
expensive. But we must look at these sorts of activities as 
investments in the land--investments that will immediately 
reduce the risk of catastrophic fire and, in the long run will 
greatly enhance forest productivity, health, and diversity. It 
took many decades for today's unhealthy forest conditions to 
develop; it will take many years to reverse them.
    Thanks for inviting me to be here today. I'd be pleased to 
answer any questions.

                                ------                                


Testimony of Steve Holmer, Campaign Coordinator, Western Ancient Forest 
                                Campaign

    Chairman Chenoweth, thank you for this opportunity to 
testify on the management of our National Forests. The Western 
Ancient Forest Campaign represents organizations and 
individuals nationwide who are dedicated to protecting forest 
and aquatic ecosystems on the National Forests.
    Increasing evidence demonstrates that over the past three 
decades, our National Forests have suffered too much logging, 
too much roadbuilding, and too much cattle grazing and fire 
suppression with little concern about the impact these 
activities have on our clean water supplies, fish and wildlife, 
recreational opportunities and the ecological integrity of 
forest ecosystems.

    The Facts: Our National Forests Imperiled

    A recent mapping project by the World Wildlife Fund 
concluded that only 2% of the original forests remain in the 
lower forty eight states. The Eastside Forests Scientific 
Society Panel report concluded that the few remaining roadless 
areas are threatened and that very little of the old growth 
Ponderosa pine forest remains. The report recommends: no 
logging of old growth forests or trees of any species older 
than 150 years or greater than 20 inches in diameter; no 
logging in aquatic diversity areas and to establish protected 
corridors along streams, rivers, lakes and wetlands; no logging 
or roadbuilding in roadless areas.
    Both the PACFISH and INFISH federal interim guidelines for 
protecting imperiled fish stocks concurred with the conclusion 
that we need to protect roadless areas and riparian zones to 
restore declining fisheries. These are critical first steps 
towards proper management and rehabilitating faltering forest 
and aquatic ecosystems in the Inland West.
    The Sierra Nevada Ecosystem Project report came to similar 
conclusions and also stated that, ``Timber harvest, through its 
effects on forest structure, local microclimate, and fuel 
accumulation, has increased fire severity more than any other 
recent human activity. `` The notion that we can salvage log 
the forests to reduce fire risk is not supported by any 
empirical scientific data.
    In the state of Idaho, over 960 streams are polluted and 
rated as ``water quality limited'' by the Environmental 
Protection Agency because of too much contamination in the 
streams. Over half of these streams are being degraded by 
logging. Flooding, exacerbated by logging and roadbuilding in 
the Couer d'Alene watershed is steadily sending millions of 
pounds of lead contaminated sediments into Lake Couer d'Alene 
and ultimately into the city of Spokane's watershed. In Oregon, 
seven people were killed this year as a result of mudslides. 
Numerous scientific studies have been published, including by 
the U.S. Forest Service that conclude that logging and 
roadbuilding increase the risk and severity of landslides and 
flooding.
    Across the West, fish stocks continue to decline and many 
species such as the coho and bull trout are being considered 
for listing under the Endangered Species Act. Over 70,000 jobs 
of a once booming commercial fishing industry have been lost 
because the fish are gone. Clean drinking water for millions of 
Americans originates on the National Forests and yet there is 
no protection for this resource. Last year, the city of Salem, 
Oregon was forced to close down its water treatment system 
because of the huge amount of sediments filling the river. The 
City of Portland estimated that it would have cost $200 million 
to build water treatment facilities if the Bull Run watershed 
that provides their water was not protected from logging and 
roadbuilding.
    The private and public forests of the Southeast are 
threatened by unsustainable logging. There are now over 140 
chip mills in the Southeast that average over 300,000 tons of 
chips a year, 100 of these were sited within the last ten 
years. At 300,000 metric tons of chips per mill per year, 
nearly one million acres--1,562 square miles--of southeast 
forest are being fed annually to the chip mills. And because 
chip mills grind up trees of any size, clearcutting is the most 
common method of logging used to feed the mills. According to 
industry and USFS, the growth to harvest ratio for softwoods in 
the South went negative in 1991. Hardwood harvests are expected 
to exceed growth within the next 2-10 years. This is not only 
evidence that the industry is unsustainable, but that chip 
mills are depleting the forests, thereby impacting water 
quality, habitats, ecosystem health and local forest-dependent 
businesses. In addition, chip mills employ very few workers. A 
typical chip mill has a sourcing radius of 75 miles yet only 
employs from 4 to 10 people and the hardwood consumed by a 
single chip mill in one month could run an average size sawmill 
for an entire year. Hardwood chip exports increased 500% from 
1989 to 1995.
    These are the facts as presented by the scientific 
community, industry and government agencies. These are the real 
forest ecosystem health problems which this Committee chooses 
to ignore in favor of arguments that all come to the same 
conclusion: more logging.

    The Lessons of the Logging Rider

    Claiming to address the overstocking and fuel loading 
problems caused by fire suppression and grazing cattle, the 
104th Congress passed the Salvage Logging Rider which suspended 
environmental laws and a citizen's right to have those laws 
enforced and participate in how their own lands were being 
managed. But no effort was made to address the fundamental 
problems of too much grazing and too much fire suppression.
    Under the rider we witnessed the logging of Ancient Forests 
that had been protected by the courts. Under the rider, the 
guise of logging dead and dying trees was used by the Forest 
Service to log large, green trees. Unroaded areas, which 
represent some our nation's last unprotected wilderness were 
entered and logged. The government's own Interagency Report on 
the Implementation of the Rider confirmed these abuses.
    The logging rider ignored science by suspending procedural 
laws such as the National Environmental Policy Act that 
requires the best available information be applied before the 
government takes a proposed action. The logging rider allowed 
the agency to ignore economics and offer timber sales that they 
knew would lose money. The agreement implementing the rider 
reinstituted timber targets. This kind of discredited mandate 
forces the agency to ``get-the-cut-out'' by making bad 
management decisions that ignore scientific evidence and 
economic common sense, and that have devastating consequences 
for the environment.
    The logging rider overturned the fundamental notions of 
democracy by banning citizen appeals and the system of checks 
and balances that has made our system work by allowing the 
Forest Service to ignore the objections of other federal 
agencies. Eliminating citizen appeals and meaningful judicial 
review has no place in the American system which is based on 
the right of every citizen to participate and ensure that the 
government is not acting above the law.
    To their credit, Clinton Administration officials admitted 
that signing the rider was the worst mistake of their first 
term and they issued the Glickman Directive which halted some 
but not all of these abuses.
    In the aftermath of the rider, several lessons are clear. 
Our environmental laws and public processes should never again 
be suspended. Ancient Forests, roadless areas and riparian 
zones need permanent protection. And the U.S. Forest Service 
needs to be reformed and made more accountable to the public.

    Restoring Accountability

    To address these threats to the health of our forest 
ecosystems we would like to make several recommendations which 
we urge the Committee to adopt.
    Working in conjunction with over forty other organizations, 
we have developed a Grassroots Forest Initiative to identify 
some specific ideas to help restore accountability to the 
agency and help stop the abuses that continue to threaten our 
forest heritage. Here are the four points in the initiative:
    1. Prohibit new roadbuilding on the National Forests by 
ending any appropriation for new roads and by prohibiting the 
use of purchaser road credits to build new roads. Given the 
ecological importance of roadless areas and with over 370,000 
miles of logging roads, eight times the length of the 
Interstate Highway, and a massive backlog of roads in need of 
maintenance, it does not make sense to build new roads.
    2. Prohibit logging and road-building on unstable and 
potentially unstable national forest land. Recent landslides in 
the West have demonstrated some of the ``hidden costs'' to 
public safety and the environment of subsidized logging and 
road building on steep, unstable slopes.
    3. Restore accountability by reforming or abolishing off-
budget funds. There is a growing consensus that the various 
off-budget funds--the Knutson-Vandenberg (KV), Brush Disposal 
and Salvage Funds--which total nearly a billion dollars a year, 
must be either reformed or abolished. The Interagency Report on 
Implementation of the Rider concluded that the salvage fund 
created an incentive for the agency to choose logging projects 
when other activities (such as prescribed fire or stream 
restoration) were more appropriate, because the agency could 
keep most of the receipts for the salvage logging operations. 
We strongly oppose tying restoration projects to timber sale 
receipts.
    4. End money-losing timber sales. The annual report of the 
White House Council of Economic Advisors shows that the Forest 
Service spent $234 million more than it collected in timber 
receipts in 1995. ``Generally, the Forest Service subsidizes 
timber extraction from public lands by collecting less timber 
sale revenues than it spends on timber program costs,'' the 
report says. According to the Government Accounting Office 
(GAO) the timber sale program lost nearly $1 billion from 1992-
1994. For the sake of both the environment and the taxpayer, it 
is time to end subsidized logging on the National Forests.
    This initiative has been signed by over one hundred groups 
including the Sierra Club, The Wilderness Society, California 
Wilderness Coalition, Inland Empire Public Lands Council, 
Oregon Natural Resources Council, Northeast Ohio Sierra Club, 
Northwest Ecosystem Alliance, and the Western North Carolina 
Alliance.
    At Sen. Craig's recent forest management workshop the 
Government Accounting Office testified that during 1995, the 
Forest Service spent $215 million dollars of the taxpayer's 
money, that they cannot account for. We urge the Committee to 
use its oversight authority to find out what happened to the 
taxpayer's $215 million, determine why the agency can't account 
for it and document how they will ensure this abuse of the 
public's trust will not occur again.
    We urge the committee to look at the full range of values 
our forests provide such as clean water, fish and wildlife 
habitat, and recreational opportunities. According to the 
Forest Service Resources and Planning Assessment, by the year 
2000, recreation on the National Forests will produce over $100 
billion dollars for the economy while logging will only produce 
$3.5 billion. The value of clean and stable water flows from 
our forests is estimated in the trillions.

    Old Growth, Roadless Areas and Riparian Zones Need 
Protection

    In testimony before the Senate Energy Committee on February 
25, 1997, Chief of the Forest Service Michael Dombeck 
testified, ``The unfortunate reality is that many people 
presently do not trust us to do the right thing. Until we 
rebuild that trust and strengthen those relationships, it is 
simply common sense that we avoid riparian, old growth and 
roadless areas.'' We urge the Committee to support Chief 
Dombeck's effort to reform the agency and restore the public's 
trust by adopting his common sense recommendation and the other 
recommendations in this testimony.
    In closing, I would like to quote a Republican President 
who helped make this a great nation by protecting some of our 
National Forests, Teddy Roosevelt, who said, ``The Nation 
behaves well if it treats the natural resources as assets which 
it must turn over to the next generation increased and not 
impaired in value.''
    I believe the United States is a great nation, but I feel 
that we are now risking that greatness by lacking the foresight 
and courage that made us great to begin with. We can choose to 
squander our remaining unprotected wild places, or we can be 
revered by future generations as Teddy Roosevelt is, for having 
the vision and the greatness to protect this nation's natural 
heritage.
    Thank you for this opportunity to testify.

                                ------                                


 Statement of Kenneth C. Kane, Keith Horn, Inc., Consulting Foresters, 
                           Kane, Pennsylvania

    Madame Chairman and members of the Subcommittee, I 
appreciate the opportunity to appear before you today to 
discuss forest health on the Allegheny region which includes 
the Allegheny National Forest (ANF). You have asked those 
testifying before the Subcommittee to address two specific 
issues:
    1. What criteria determine if a forest is healthy or 
unhealthy? and
    2. What management tools are most appropriate to maintain 
or improve forest health?
    I will address both of your questions directly. However, 
let me first provide some background information which will 
help set the stage for my presentation.
    My name is Kenneth C. Kane. I am Vice President of Keith 
Horn, Inc. consulting foresters in Kane, Pennsylvania. I am a 
graduate of Penn State's School of Forest Resources where I 
received a Bachelor of Science degree in 1982. I have lived in 
the Allegheny region my entire life and have studied and worked 
with the forests of this region for over 20 years. For the last 
13 years, I have been a full-time, hands-on manager of private 
forest land. I am Chairman of the Pennsylvania Division of the 
Society of American Foresters and also Chairman of Penn Chapter 
of the Association of Consulting Foresters of America. I am 
also president of the Kane Area School Board and active in 
other community and industrial organizations, including the 
Allegheny Forest Alliance. I am testifying on my own behalf.

    The Allegheny National Forest

    For many years, the Allegheny National Forest has been the 
single largest source of high-quality black cherry, a species 
of wood in great demand here in the United States and around 
the world. Continued harvest and regeneration of the ANF's 
black cherry trees is a top priority for hardwood lumber 
producers located near the ANF and for veneer manufacturers 
throughout North America.
    It is fair to say that the ANF is the flagship national 
forest in the Northeast. In the last seven years (fiscal years 
'90-'96) the ANF produced $132.6 million in timber sale 
revenues. The Forest Service estimates that costs attributable 
to the ANF timber program during that period were $29.1 
million. Thus, the net profit to the United States was $103.5 
million. Of that amount, $33.8 million was returned to the 
counties through the Twenty-Five Percent Fund. [Attached is a 
chart (Fig. 1) which illustrates the ANF's profitability.]
    Fortunately, Madame Chairman, the ANF has no widespread 
threatened or endangered species listings or other over arching 
legal/political issues driving its timber program into a tail 
spin of oblivion. However, there are other challenges ahead, 
and we must act now to protect the enormous values of this 
national forest.

    The ANF: A Forest at Ever-increasing Risk

    Like other national forests in the Eastern US, the 
Allegheny National Forest is a second-growth forest with mostly 
even-aged timber stands. In general, these stands were created 
50-90 years ago and are now extremely well-stocked with black 
cherry and other valuable hardwood trees. Black cherry is a 
shallow rooted tree species; mature trees are highly 
susceptible to wind-throw damage. Thus, the stands on the ANF 
that are heavy with mature black cherry trees are at ever 
increasing risk.
    Attached to this statement are two charts that illustrate 
my point. The first (Fig. 2) shows the distribution of timber 
stands by 20-year age classes. As you can see, nearly all of 
the timber stands on this 503,000 acre national forest are 
either 51-70 or 71-90 years old. The second chart (Fig. 3) 
illustrates the fact that the ANF is an incredibly productive 
timber-growing forest. More than four-fifths of this forest is 
highly suited for the production of black cherry, oak, and 
other species.
    As mentioned earlier, the ANF is the single most important 
source of high quality black cherry logs. Given the importance 
of this species to the domestic furniture business and to 
America's veneer and lumber exports, we need to do everything 
possible to ensure that the ANF will always be a source of 
black cherry. That's why we have to maintain and improve the 
health of this and other national forests.

    Question One: What Criteria Determine If a Forest Is 
Healthy?

    To answer this question for the Allegheny Plateau, you must 
remember that essentially the entire forest in the region was 
clear-cut between 1880 and 1930. [Such clear-cutting was very 
common throughout the East. In fact, nearly all eastern 
hardwood forests are the result of the clear-cuts which 
occurred at or near the turn of the century.] The vast clear-
cutting of that era virtually eliminated the beech-hemlock, 
old-growth (climax) forests of the region. The hardwood forests 
which emerged did so naturally (without planting).
    So, within the forests of the Allegheny region and other 
``second-growth'' eastern hardwood forests, forest health is 
typically determined by answering some basic questions:
    <bullet>Individual Tree Vigor. What is the condition of the 
crown, stem, root, and leaf of the tree?
    <bullet>Species Diversity. Is there an adequate diversity 
of trees, shrubs, flowers, and other plant species present in 
the forest?
    <bullet>Size Class Diversity. Since not all trees grow at 
the same rate, are there trees of various sizes?
    <bullet>Presence of Desired Natural Regeneration. Are 
preferred tree and other plant species regenerating naturally 
or are non-preferred species becoming dominant?
    It is important to emphasize, however, that forest health 
criteria--like other forest management parameters--are defined 
by the landowner. One of the reasons why national forest health 
seems to be a moving target is that public forestry issues are 
very dynamic. In other words, the objectives of the landowner 
(the public) changes constantly. That is not the case in the 
private sector, where most forest landowners have two primary 
objectives: (1) production of wood products; and (2) continuity 
of ownership. [Some forest lands in our region have been held 
by the same family since 1855.]
    So, where do we stand? At present, forest health in the 
Allegheny region is threatened by native and exotic insects, 
disease, and mammals. The Gypsy Moth and Beech Scale Nectria 
complex are two examples of exotic threats and over-browsing by 
white tailed deer (which reduces desired vegetation such as 
hardwood seedlings and thus species diversity) is an example of 
a native mammal threat.
    In addition to these problems, the forests of the region 
are simply growing old. Typically, forest professionals find 
that forests in the Allegheny region that are 50 years of age 
are generally healthier than forests which are 75 years old, 
which are healthier than forests that are 100 years old, etc. 
This is attributed to the fact that hardwood forests--like 
humans--experience reduced resilience as they approach the end 
of their natural life span (which is about 125 years for the 
forests and a bit less for humans). Hardwood forests change 
dramatically between 125 and 150 years of age. Specifically, 
species diversity drops from a wide variety of shade intolerant 
species (including black cherry, ash, tulip poplar, etc.) to a 
handful of shade tolerant species (mostly sugar maple, hemlock, 
and beech). This decrease in tree species diversity is one 
measure of an unhealthy forest.
    As mentioned earlier, the forests of the Allegheny region 
(especially the ANF) are recognized internationally for the 
high-quality hardwood timber that they produce. The unique 
unglaciated soils of the region produce the world's best 
quality black cherry in stands that reach economic maturity at 
80 to 100 years of age. We have reached the point in time on 
the Allegheny Plateau where biological and economic maturity 
coincide. Thus, we must address the needs to regenerate these 
forests for both financial and biological reasons.
    But, in addition, the public generally prefers to hunt, 
camp, hike, etc. in maturing 70 year old Allegheny hardwood 
forests rather than decadent 150 year old forests. This is 
attributed to reduced diversity in the oldest forests and the 
presence of dense underbrush (e.g. beech brush, striped maple, 
and fern) which result from deer over-browsing. Also, the 150 
year old forests are generally less ``scenic'' because they are 
more likely to have a higher percentage of beech infested with 
the Beech Scale Nectria complex (an exotic disease which causes 
the trees to snap off at mid-stem).

    Question Two: What Management Tools Are Most Appropriate?

    Having examined the criteria for a ``healthy'' forest in 
our region of the country, let me turn now to your second 
question which is: What management tools are most appropriate 
to maintain or improve forest health? As a practicing forester, 
I recommend that landowners take certain actions to maintain 
the health and vitality of the forests within the Allegheny 
region:
    <bullet>Employ Sound Silvicultural Practices and 
Professional Forestry. [This is self-explanatory.]
    <bullet>Use Modern Silvicultural Methods and Timber 
Harvesting Scenarios. These practices are site specific and 
model natural occurrences.
    <bullet>Employ Qualified Resource Managers to Monitor 
Forest Conditions Closely. This is necessary to follow insect 
populations and assess the effects of disease, drought, and 
other phenomena.
    <bullet>Control Large Deer Populations. Increase the use of 
silvicultural regeneration tools such as fence enclosures and 
herbicides. Promote sport hunting to reduce deer over-
population.
    <bullet>Use Aerial Application of Natural Pesticides. This 
is necessary to control exotic and abnormal native insect 
infestations. [This was done with great success in 1994 
cooperatively on both private and public land in Northwestern 
Pennsylvania and Southwestern New York against an unprecedented 
population of the Elm Spanworm and Forest Tent Caterpillar. 
Similar efforts have also worked effectively against the Gypsy 
Moth.]
    In addition to these tools that are available to the 
resource manager, I believe that Congress and the 
Administration have continuing roles to play. And, given this 
opportunity, I offer the following thoughts for your 
consideration:
    <bullet>Continue to Fund and Promote Forest Research. 
Research at the US Forest Service's Northeast Experiment 
Station in Warren, PA has provided the modern silvicultural 
methods used throughout the Allegheny region. Significantly, 
over 1,100 forest managers have attended the training sessions 
offered by the Station.
    <bullet>Enact Tax Incentives. The Internal Revenue Code 
needs to be changed to provide tax incentives for private, non-
industrial landowners to follow sound forest management 
practices. Particular emphasis should be given to changes to 
the capital gains and estate taxes.
    <bullet>Increase Forest Education. Finally, there is a 
pressing national need for education programs for forest 
landowners, professionals, and the public. Professionals need 
to better understand the modern tools available to them. 
Landowners and the public need to better understand the forest 
ecosystem and the necessity of using sound science as the basis 
for management decisions.
    Thank you, Madame Chairman, for the opportunity to present 
this statement.

[GRAPHIC] [TIFF OMITTED] T0351.001

[GRAPHIC] [TIFF OMITTED] T0351.002

[GRAPHIC] [TIFF OMITTED] T0351.003

[GRAPHIC] [TIFF OMITTED] T0351.004

[GRAPHIC] [TIFF OMITTED] T0351.005

[GRAPHIC] [TIFF OMITTED] T0351.006

[GRAPHIC] [TIFF OMITTED] T0351.007

[GRAPHIC] [TIFF OMITTED] T0351.008

[GRAPHIC] [TIFF OMITTED] T0351.009

[GRAPHIC] [TIFF OMITTED] T0351.010

[GRAPHIC] [TIFF OMITTED] T0351.011

[GRAPHIC] [TIFF OMITTED] T0351.012

[GRAPHIC] [TIFF OMITTED] T0351.013

[GRAPHIC] [TIFF OMITTED] T0351.014

[GRAPHIC] [TIFF OMITTED] T0351.015

[GRAPHIC] [TIFF OMITTED] T0351.016

[GRAPHIC] [TIFF OMITTED] T0351.017

[GRAPHIC] [TIFF OMITTED] T0351.018

[GRAPHIC] [TIFF OMITTED] T0351.019

[GRAPHIC] [TIFF OMITTED] T0351.020

[GRAPHIC] [TIFF OMITTED] T0351.021

[GRAPHIC] [TIFF OMITTED] T0351.022

[GRAPHIC] [TIFF OMITTED] T0351.023

[GRAPHIC] [TIFF OMITTED] T0351.024

[GRAPHIC] [TIFF OMITTED] T0351.025

[GRAPHIC] [TIFF OMITTED] T0351.026

[GRAPHIC] [TIFF OMITTED] T0351.027

[GRAPHIC] [TIFF OMITTED] T0351.028

[GRAPHIC] [TIFF OMITTED] T0351.029

[GRAPHIC] [TIFF OMITTED] T0351.030

[GRAPHIC] [TIFF OMITTED] T0351.031

[GRAPHIC] [TIFF OMITTED] T0351.032

[GRAPHIC] [TIFF OMITTED] T0351.033

[GRAPHIC] [TIFF OMITTED] T0351.034

[GRAPHIC] [TIFF OMITTED] T0351.035

[GRAPHIC] [TIFF OMITTED] T0351.036

[GRAPHIC] [TIFF OMITTED] T0351.037

[GRAPHIC] [TIFF OMITTED] T0351.038

[GRAPHIC] [TIFF OMITTED] T0351.039

[GRAPHIC] [TIFF OMITTED] T0351.040

[GRAPHIC] [TIFF OMITTED] T0351.041

[GRAPHIC] [TIFF OMITTED] T0351.042

[GRAPHIC] [TIFF OMITTED] T0351.043

[GRAPHIC] [TIFF OMITTED] T0351.044

[GRAPHIC] [TIFF OMITTED] T0351.045

[GRAPHIC] [TIFF OMITTED] T0351.046

[GRAPHIC] [TIFF OMITTED] T0351.047

[GRAPHIC] [TIFF OMITTED] T0351.048

[GRAPHIC] [TIFF OMITTED] T0351.049

[GRAPHIC] [TIFF OMITTED] T0351.050

[GRAPHIC] [TIFF OMITTED] T0351.051

[GRAPHIC] [TIFF OMITTED] T0351.052

[GRAPHIC] [TIFF OMITTED] T0351.053

[GRAPHIC] [TIFF OMITTED] T0351.054

[GRAPHIC] [TIFF OMITTED] T0351.055

[GRAPHIC] [TIFF OMITTED] T0351.056

[GRAPHIC] [TIFF OMITTED] T0351.057

[GRAPHIC] [TIFF OMITTED] T0351.058

[GRAPHIC] [TIFF OMITTED] T0351.059

[GRAPHIC] [TIFF OMITTED] T0351.060

[GRAPHIC] [TIFF OMITTED] T0351.061

[GRAPHIC] [TIFF OMITTED] T0351.062

[GRAPHIC] [TIFF OMITTED] T0351.063

[GRAPHIC] [TIFF OMITTED] T0351.064

[GRAPHIC] [TIFF OMITTED] T0351.065

                                  <all>
</pre></body></html>
